U.S. Department of Justice
Office of the Inspector General




   A Review of the FBI’s Progress in
Responding to the Recommendations in
  the Office of the Inspector General
      Report on the Fingerprint
   Misidentification in the Brandon
             Mayfield Case




                                  Office of the Inspector General
                                  Oversight and Review Division
                                                       June 2011
                                    TABLE OF CONTENTS 

TABLE OF CONTENTS ................................................................................ i
 

CHAPTER ONE BACKGROUND .................................................................. 1
 

I.      Introduction ..................................................................................... 1
 

II.     Summary of the OIG Follow-Up Review ............................................. 2
 

III.    Overview of Latent Fingerprint Identification and Methodology.......... 3
 

IV.     Overview of the Mayfield Error and the FBI’s Responses.................. 16
 

V.      Challenges to the Latent Fingerprint Discipline ............................... 19
 

CHAPTER TWO THE FBI LABORATORY’S IMPLEMENTATION OF 

    THE OIG’S RECOMMENDATIONS ................................................... 22
 

I.      Recommended Research Projects .................................................... 22
 

II.     Revision of the Standard Operating Procedures (SOPs).................... 26
 

III.    Documentation ............................................................................... 39
 

IV.     Verification Procedures ................................................................... 42
 

V.      Special Reviews .............................................................................. 49
 

VI.     Conclusion ..................................................................................... 53
 




                                                        i
                                      CHAPTER ONE 

                                      BACKGROUND


I.     Introduction

       In March 2004, the Federal Bureau of Investigation (FBI) Laboratory
identified Brandon Mayfield, an Oregon attorney, as the source of a latent
fingerprint recovered from a plastic bag containing explosive detonators found
near the site of commuter train bombings in Madrid, Spain that killed almost
200 people and injured more than 1,400 others. Based primarily on the FBI
Laboratory’s conclusion, the FBI arrested Mayfield as a material witness in May
2004. Approximately 2 weeks after Mayfield’s arrest, the Spanish National
Police (SNP) informed the FBI that it had identified an Algerian national,
Ouhnane Daoud, as the source of the latent fingerprint. The FBI subsequently
examined Daoud’s fingerprints and withdrew its identification of Mayfield, and
Mayfield was released from custody after being held for 14 days. The FBI
issued a formal apology to Mayfield and his family.

      After news of the misidentification became public, the Department of
Justice (DOJ) Office of the Inspector General (OIG) initiated a review to
determine the causes of the error, assess the FBI Laboratory’s conduct,
evaluate its responses to the error, and make additional recommendations for
changes in FBI Laboratory procedures to prevent future errors. The OIG’s
report, A Review of the FBI’s Handling of the Brandon Mayfield Case, was
issued in early 2006.1

       The OIG’s review examined in detail the methodology used by the FBI
Laboratory to conduct latent fingerprint examinations, the Standard Operating
Procedures (SOPs) in place at the time of the misidentification, and the
sequence of events that led FBI Laboratory latent print examiners to identify
Mayfield incorrectly as the source of the Madrid latent fingerprint. The scope of
our review focused on ascertaining the causes of the Mayfield error and
recommending practical steps to improve the reliability of latent fingerprint
examinations and reduce the likelihood of future errors. We concluded that
the latent print examiners involved in the misidentification did not engage in

       1  We produced both a classified and an unclassified version of the report. A version
classified at the Secret level was provided to the FBI and to the Department on January 5,
2006, and to the Chairman and Ranking Member of several congressional committees on
January 6, 2006. We also publicly released on January 6, 2006, a 20-page unclassified
executive summary highlighting the investigation’s primary findings. After further work with
the FBI and the Department to either declassify or redact as much of the information in the
classified version of the report as possible, we publicly released a redacted, unclassified version
on March 10, 2006.




                                                1

intentional misconduct or violate any explicit FBI Laboratory procedures, but
rather made errors in their application of the latent fingerprint methodology
that reflected systemic problems with the FBI Laboratory’s operations.

       Based on our findings, our report made 18 recommendations to improve
the FBI Laboratory’s latent print operations and help prevent future
misidentifications. The recommendations fell into six general categories: (1)
conducting research to strengthen the scientific basis and develop objective
criteria for identifying the source of a latent fingerprint; (2) revising the SOPs to
provide more specific standards for conducting latent fingerprint examinations;
(3) improving documentation of latent print examinations; (4) implementing
verification and blind verification procedures to guard against bias; (5)
reviewing certain previous cases to ensure similar errors had not occurred;
and (6) creating a written record of explanations for errors. These
recommendations are described in more detail in Chapter Two of this report.


II.   Summary of the OIG Follow-Up Review

      Since issuance of our original report, the OIG has received several
updates from the FBI Laboratory regarding its progress in implementing our
recommendations. The Laboratory provided information to the OIG in March
2006; January 2008; and January, August, and November 2010. The FBI
Laboratory’s updates summarized the status of its efforts and provided
updated copies of relevant Operating and Quality Assurance Manuals, SOPs,
research findings, and training materials.

       In this follow-up review, we assessed the FBI Laboratory’s progress in
implementing the 18 recommendations we made to help improve its latent
fingerprint methodology and minimize the chances of future errors. We met
with representatives from the FBI Laboratory and requested information to
supplement and update earlier information concerning research projects in
progress and recent revisions to the Laboratory’s SOPs, manuals, and training
materials. As part of the follow-up review, we conducted interviews with
managers from the FBI Laboratory’s Latent Print Operations Unit, Latent Print
Support Unit, and Evidence Control Unit; latent fingerprint examiners; and
representatives of the Department of Justice Criminal Division Capital Case
Unit. We also examined research into the scientific foundations of latent
fingerprint analysis being conducted by the National Institute of Standards and
Technology (NIST), latent fingerprint experts, and researchers at various
universities to address the concerns raised by the OIG and FBI reviews of the
Mayfield misidentification, as well as court challenges to the admissibility of
latent fingerprint evidence and a 2009 report by the National Academy of
Sciences (NAS) critical of the forensic science disciplines.




                                          2

        The report is organized into two chapters. Chapter One provides
background information on the FBI Laboratory’s latent fingerprint
methodology, an overview of the causes of the Mayfield error, and legal and
scientific developments in the latent fingerprint discipline since the publication
of our original Mayfield report in 2006. Chapter Two analyzes the FBI
Laboratory’s response to our recommendations and is organized in sections
that correspond to the general categories of recommendations in the original
Mayfield report. In Chapter Two we examine the FBI’s progress in
implementing the recommendations and describe what additional steps the FBI
Laboratory has taken to address our concerns and what work remains before
all of the recommendations can be closed.

       In general, we found that the FBI Laboratory has made significant
progress in implementing most of the recommendations we made in our
original report, including undertaking research to develop objective criteria for
latent fingerprint analysis and substantially revising its SOPs and training
materials to address many of the causes of the Mayfield misidentification. In
other areas, the FBI Laboratory has implemented procedures that differ from
our recommendations, or has addressed them in its training materials rather
than its SOPs, but nonetheless has fulfilled the intent of the recommendations.
Several of the most significant recommendations, however, depend on the
results of the FBI Laboratory’s ongoing research projects and have not been
implemented. Additionally, in several areas, the FBI Laboratory made changes
to its procedures and training materials during the course of our review to
address our remaining concerns.


III.   Overview of Latent Fingerprint Identification and Methodology

       In this section we provide background regarding the premises of latent
fingerprint identification and the FBI Laboratory’s latent fingerprint
identification methodology. A more detailed discussion regarding these
subjects appears in our original report. However, we have updated the
discussion of FBI Laboratory procedures to reflect the current SOPs
and practices, some of which were adopted after our original report in response
to the Mayfield error.

       A.   The Premises of Latent Fingerprint Identification

       A fingerprint is a reproduction of the pattern of friction ridge formations –
that is, ridges on the skins of the fingers, palms, and feet that produce
increased friction for gripping – on the surface of a finger. Friction ridges form
during embryonic development in patterns caused by a combination of genetic
and environmental influences. Fingerprints result from the deposition of oil or
other substances upon contact between a surface and the friction ridges on a
finger.



                                         3

       Latent fingerprint identification involves two categories of fingerprints:
“known” or “exemplar” fingerprints and “latent” fingerprints. Known
fingerprints are captured under controlled conditions by rolling the surface of
the fingertip onto a fingerprint card or an electronic fingerprint capture device,
or by pressing the fingers of each hand onto a card simultaneously, without
rolling, to produce flat impressions. A full set of rolled fingerprints and flat
impressions on a fingerprint card is known as a “ten-print” card.

        By contrast, latent fingerprints are those left at the scene of a crime.
Forensic laboratories use various physical and chemical processing techniques
to enhance the visibility of latent fingerprints and to photograph them for
analysis and comparison. The “clarity” of a latent fingerprint depends on how
well the details from the three-dimensional friction ridges transfer from the
finger and are reproduced in a two-dimensional image. Latent fingerprints
frequently are distorted by factors such as downward pressure or lateral
movement of the finger during deposition of the fingerprint, the shape or
consistency of the surface upon which the fingerprint was deposited, or the
type of substance deposited by the finger to make the fingerprint. As a result
of these factors, latent fingerprints frequently are of lower clarity than known
fingerprints and reproduce only a small fraction of the friction ridge detail in a
full fingerprint.

       Friction ridge patterns and fingerprints frequently are described in terms
of three “levels of detail.” Level 1 detail refers to ridge flow and includes
patterns visible to the naked eye such as loops, whorls, and arches. Level 2
detail refers to characteristics that occur on individual ridge paths, including
the turns that each ridge takes and the places where ridges end or split, known
as ridge path deviations. Level 3 detail refers to extremely tiny variations in the
ridges themselves, such as the shape of ridge edges, the width of the ridges,
and the shape and relative location of pores along the ridges. Forensic
examiners identify the source of a latent fingerprint by analyzing and
comparing these three levels of detail to the known fingerprints of a particular
candidate.2 Level 2 ridge path deviations, also known as “points” or

       2  Since 1999, the FBI Laboratory has used its Integrated Automated Fingerprint
Identification System (IAFIS) to search for fingerprints for comparison in cases lacking known
subjects. IAFIS is a system for conducting computerized searches of FBI databases containing
the known fingerprints of more than 67.2 million subjects in the criminal master file, including
73,000 known and suspected terrorists, and more than 26.3 million prints in the civil file,
which contains prints taken in a non-criminal context, such as those from current and former
federal employees and military personnel. To conduct an IAFIS search, examiners “encode” a
digital image of the latent fingerprint by marking selected characteristics and then search the
databases for similar fingerprints. IAFIS generates a list of 10 or 20 candidates whose known
fingerprints score the highest according to a complex algorithm that measures the
correspondence of points in the known prints with the encoded points. The examiner
compares the candidate prints side-by-side with the latent fingerprint on the computer screen
but may retrieve the original ten-print cards before reaching a final conclusion. The FBI
                                                                                         (Cont’d.)


                                                4

“minutiae,” long have been a major focus of latent fingerprint examination, and
agreement in Level 2 details forms a primary basis for identifying the source of
a latent fingerprint.

      Latent fingerprint identification relies on the premises that friction ridges
are unique and permanent. Some critics of latent fingerprint identification
claim that these premises have not been scientifically proven.3 A 2009 report
by the NAS, however, concluded that “[s]ome scientific evidence supports the
presumption that friction ridge patterns are unique to each person and persist
unchanged throughout a lifetime.”4 Additional research to validate these
concepts is ongoing.

       B.      The FBI Laboratory’s Latent Fingerprint Methodology

       The latent fingerprint discipline uses the “ACE-V” method for examining
latent fingerprints. ACE-V is an acronym for the four steps of the method:
Analysis, Comparison, Evaluation, and Verification. Unlike some forensic
laboratories, the FBI Laboratory uses a “linear” approach to ACE-V, requiring
examiners to complete and document their analysis of a latent fingerprint
before viewing any known fingerprints or moving to the comparison and
evaluation phases. The FBI Laboratory’s increased focus on a linear approach
was at least in part a response to the OIG’s findings regarding the role of
circular reasoning in the Mayfield error.5

      The individual steps of the process used by the FBI Laboratory are
described below.6


recently unveiled an upgraded fingerprint identification system as part of its Next Generation
Identification (NGI) System, a database that will integrate fingerprint search capabilities with
other types of biometric identification upon completion. NGI will expand IAFIS search
capabilities by using a different fingerprint identification algorithm and, when fully
implemented, will produce faster, more accurate search results.
       3 See, e.g., Simon A. Cole, “Forensics Without Uniqueness, Conclusions Without

Individualization: The New Epistemology of Forensic Identification,” Law, Probability & Risk 8,
September 2009: 233, 236-247; Michael J. Saks and Jonathan J. Koehler, “The
Individualization Fallacy in Forensic Science Evidence,” Vand. L. Rev. 61, January 2008:
199, 210-214; Lyn Haber and Ralph Norman Haber, Challenges to Fingerprints (Tucson,
Arizona: Lawyers & Judges Publishing Company, Inc., 2009), 21-26.
       4 Committee on Identifying the Needs of the Forensic Science Community,

National Research Council of the National Academies, Strengthening Forensic Science in the
United States: A Path Forward (The National Academies Press, 2009), 143-44 n.34-37 (“NAS
Report”).
       5 See U.S. Department of Justice Office of the Inspector General, A Review of the FBI’s
Handling of the Brandon Mayfield Case (March 2006), 138-150.
       6The FBI Laboratory revised its SOPs for Examining Friction Ridge Impressions and
Procedures for Blind Verification in April 2011, at the end of our follow-up review. The FBI
                                                                                         (Cont’d.)


                                                5

              1.      Analysis

       During the analysis phase, examiners consider the three levels of detail
in a fingerprint, determine its anatomical orientation, and assess potential
sources of distortion that may affect its appearance. The objective of the
analysis phase is to determine whether the latent fingerprint is “of value” – that
is, whether the fingerprint has a sufficient quantity and quality of information
to allow an examiner to reach a conclusion about its source. If the latent
fingerprint is highly distorted or incomplete and lacks sufficient reliable detail
to allow the examiner to reach a conclusion, the print is deemed of “no value.”

       The FBI Laboratory uses the standard “of value for identification,”
requiring an examiner to find enough reliable data to permit identification of a
latent fingerprint (assuming access to known prints from the proper source)
before proceeding to the comparison phase. The FBI Laboratory’s “of value”
standard differs from the suitability standard used by many other forensic
laboratories, which require that a latent fingerprint be “of value for
comparison” or “suitable for comparison” to move to subsequent phases of the
ACE-V process.7 According to the FBI Laboratory managers and examiners we
interviewed, “of value for identification” requires examiners to have a higher
degree of confidence in the reliability of the information they will use to form
their conclusions before comparing the latent fingerprint to any known
fingerprints.

       Section 9.1 of the FBI Laboratory’s SOPs for Examining Friction Ridge
Impressions requires examiners to complete analysis of a latent fingerprint
before looking at any known prints. In conducting analysis, FBI Laboratory
examiners use the “ridges-in-sequence” technique, in which they go “ridge-by-
ridge” and trace the friction ridges to observe their characteristics and spatial
relationships. According to Michael Wieners, Chief of the FBI Laboratory’s
Latent Print Support Unit (LPSU), and Greg Soltis, Chief of the Latent Print
Operations Unit (LPOU), using “ridges-in-sequence” produces more reliable
conclusions because it enables examiners to detect indicators of abnormal
distortion called “red flags” during the analysis phase and requires them to

Laboratory stated that it may make additional minor changes to the SOPs before formally
adopting them in late May 2011, but that the final document would not substantially differ
from the version provided to the OIG. Where relevant, we have updated our discussion of the
FBI Laboratory’s procedures to reflect these revisions.
       7  See, e.g., Scientific Working Group on Friction Ridge Analysis, Study and Technology
(SWGFAST), Revised Draft for Comment, Standards for Examining Friction Ridge Impressions
and Resulting Conclusions, § 4.1.4.2, February 11, 2011 (describing two approaches to “of
value”); Glenn Langenberg, “A Performance Study of the ACE-V Process: A Pilot Study to
Measure the Accuracy, Precision, Reproducibility, Repeatability, and Biasability of Conclusions
Resulting from the ACE-V Process,” Journal of Forensic Identification 59, no. 2 (2009): 248
n.10 (same).




                                               6

ascertain the spatial relationships between features in the latent fingerprint
before being exposed to potential sources of bias from known fingerprints.8

              2.      Comparison

      Section 9.2 of the SOPs for Examining Friction Ridge Impressions defines
comparison as the side-by-side observation of friction ridge detail to determine
whether the information in two prints is in agreement based upon features,
sequences, and spatial relationships. The comparison phase begins after the
examiner has analyzed and recorded observations for the latent fingerprint and
has determined that it is “of value for identification.” The examiner also
analyzes the known prints in a similar manner before beginning side-by-side
comparison.

       The FBI Laboratory instructs examiners to conduct comparisons from
poor quality to good quality prints, meaning that examiners generally look at
the latent fingerprint first to prevent information from the known fingerprints
from influencing their interpretation of the latent fingerprint. As with the
analysis phase, examiners use “ridges-in-sequence” during the comparison
phase, tracing the friction ridges to detect the ridge paths and features in both
the latent and known fingerprints and then using a common starting point to
compare the two fingerprints ridge-by-ridge. According to the FBI Laboratory,
using the sequential observations produced by “ridges-in-sequence” during
comparison is more reliable because adjacent ridges have a physical
attachment to each other and move more or less in concert.

              3.      Evaluation

       Under Section 9.3 of the SOPs for Examining Friction Ridge Impressions,
evaluation is the formulation of a conclusion based upon an assessment of the
agreement or disagreement of information observed during analysis and
comparison. An FBI examiner may reach three possible conclusions:
identification, exclusion, and inconclusive. In addition, in some cases the
comparison may result in the examiner determining that latent print is “not of
value for identification.”


       8  See Haber and Haber, Challenges to Fingerprints, 49 (“While no research evidence has
demonstrated the reliability of examiners describing characteristics in order along a ridge, we
would expect examiners to agree closely. This reliability still needs to be demonstrated.”);
David R. Ashbaugh and Max M. Houck, “Fingerprints and Admissibility: Friction Ridges and
Science,” Canadian Journal of Police and Security Services 3, no. 2, June 2005: 69
(recommending that examiners compare ridges in sequence to maximize cognitive judgment of
ridge length and lateral spatial relationship); Lyn Haber and Ralph Norman Haber,
“Experiential or Scientific Expertise?,” Law, Probability & Risk 7, June 2008: 145 (noting that
research is necessary to determine whether the “ridges in sequence” technique produces better
examiner agreement on the occurrence of features in latent fingerprints).




                                              7

                      a.     Identification

        Section 9.3.1 of the SOPs for Examining Friction Ridge Impressions
states that identification occurs when there is sufficient friction ridge detail in
agreement to conclude that two friction ridge prints originated from the same
source, and when the examiner would not expect to see this amount of
information in agreement from two prints that did not originate from the same
source. The FBI Laboratory does not require a minimum number of
corresponding features or minutiae to declare an identification. Instead,
examiners consider whether the quantity and uniqueness of the information
present in both prints is sufficient to conclude that they came from the same
source. Examiners assess sufficiency based on the relationship between the
quality of the latent fingerprint and the quantity of corresponding features
present: the greater the clarity, the fewer features needed for sufficiency, and
vice versa. In practice, this means that although no minimum number of
corresponding features is required, the more features in agreement, the easier
it is for an examiner to exceed his threshold of doubt and identify a latent
fingerprint.

      Historically, latent fingerprint examiners expressed identification
conclusions in terms of “100% certainty,” with a zero likelihood that the latent
fingerprint was made by a different person. Although the FBI Laboratory has
not lowered the standard required to make an identification, examiners no
longer testify that they are “100% certain.” Instead, examiners testify that they
are confident in the conclusion, would not expect to see the same amount of
information repeated if the fingerprints originated from different people, and
find no physical evidence causing them to doubt that the fingerprints are from
the same source.

       The latent fingerprint discipline also historically considered conclusions
of “[p]robable, possible, or likely individualization (identification)” to be “outside
the acceptable limits of friction ridge identification science.”9 Examiners
offering probabilistic conclusions faced possible review by the International
Association for Identification (IAI), a forensic science association that certifies
latent fingerprint examiners.10 In July 2010, however, the IAI rescinded the
ban on reporting possible, probable, or likely conclusions and allowed the use
of mathematically based models accepted as valid by the relevant scientific


        9 SWGFAST Friction Ridge Examination Methodology for Latent Print Examiners

§ 3.3.3 (2002).
       10 IAI Resolution 1980-5 (latent print examiner offering testimony of a possible,
probable, or likely match without stating that the latent fingerprint could have originated from
another source “shall be deemed to be engaged in conduct unbecoming such member”); IAI
Resolution 1979-7 (“[The] conduct and status [of an IAI-certified latent print examiner offering
probabilistic testimony] shall be reconsidered by the Latent Print Certification Board.”).




                                               8

community “to assess the associative value of the evidence.”11 Research into
the use of statistical models to calculate fingerprint probabilities is ongoing,
but no models have been validated for use in casework.

                      b.     Exclusion

       Section 9.3.2 of the SOPs for Examining Friction Ridge Impressions
states that exclusion occurs when an examiner determines that latent and
known fingerprints are not in agreement, and the examiner concludes that the
friction ridges originated from different sources. Unlike an identification,
examiners may exclude the source of a fingerprint based solely on Level 1
detail, such as when the latent fingerprint is clearly a whorl pattern and the
known fingerprint is clearly an arch.

       A discrepancy is a difference in friction ridge arrangements that indicates
a latent and a known fingerprint were made by two different sources. A
dissimilarity between the latent and known fingerprints resulting from
distortion or other factors of deposition, however, is not a discrepancy and is
not a basis for exclusion. As a result, one critical task for the examiner during
evaluation is to determine whether differences in appearance between the
prints are discrepancies (potentially requiring exclusion) or dissimilarities
caused by distortion (potentially allowing identification). Physical evidence of
distortion is the key to discerning between dissimilarities and discrepancies.
Under newly adopted SOPs, an FBI examiner must have objective physical
evidence to support any “explanation for differences” that he wishes to rely on
in support of an identification. For example, an examiner who believes that
differences he sees between a latent print and an exemplar were caused by a
double tap must find objective indications of lateral or deposition pressure and
movement observed during analysis, such as crossovers, misaligned ridges,
extra thick ridges, and protruding ridge ends, to support that explanation.
Moreover, new SOPs make it explicit that the examiner’s level of confidence in
each explanation for differences must be consistent with the degree of
confidence required in order to render an identification decision.

      Under prior versions of the SOPs, the presence of one discrepancy
between the latent and known fingerprints was sufficient to exclude a source.
The FBI Laboratory recently revised its SOPs for Examining Friction Ridge
Impressions to state that exclusion occurs where “there are sufficient friction
ridge details in disagreement to conclude that two friction ridge prints did not
originate from the same source.” The “sufficiency” standard for exclusions
thus now mirrors the sufficiency standard for identifications. Unit Chief Soltis
told us that this change brings the SOPs into closer alignment with current
practice, and that examiners rarely see one discrepancy in isolation. Moreover,

      11   IAI Resolution 2010-18.




                                         9

the one discrepancy rule was the subject of significant criticism within the
discipline.12 By its literal application, the one discrepancy rule would require a
finding of “exclusion” in any case in which the examiner is uncertain whether a
difference in appearance is a discrepancy or whether there is an explanation for
the difference, such as lateral pressure or a double touch. Application of the
one-discrepancy rule could potentially lead to erroneous exclusions.

       In some cases involving complex latent fingerprints, it may be impossible
for an examiner to either identify a latent fingerprint to a particular individual
or to exclude that individual as the source of the print. The examiner may find
one or more differences between the prints and be unable to state with
adequate confidence that they are distortions (consistent with identification) or
discrepancies (consistent with exclusion). According to Unit Chief Soltis, in
this hypothetical scenario the examiner may determine, after the comparison
phase, that the information in the latent print is not reliable, and thus the
latent print is “not of value for identification,” in effect reversing the
determination made during the analysis phase that the latent print was “of
value.” According to Soltis, in such a case the latent fingerprint would not be
discarded but would be retained in case files.

                      c.      Inconclusive

      The third permissible conclusion under Section 9.3.3 of the SOPs for
Examining Friction Ridge Impressions is “inconclusive,” used when “a qualified
examiner is unable to identify or exclude the source of a print because the
corresponding areas of friction ridge detail are absent or unreliable.” This
conclusion is available if the corresponding areas of friction ridge detail are not
captured or are distorted in the available known prints.

       An important but subtle relationship exists between the “inconclusive”
conclusion and the “of value for identification” standard used by FBI examiners
during the analysis phase. As discussed above, the FBI Laboratory uses “of
value for identification” rather than “suitable for comparison” as the
benchmark for determining whether a latent fingerprint contains sufficiently
reliable information to proceed to the comparison phase. According to John
Vanderkolk, an OIG consultant in the original Mayfield matter, determining
that a latent fingerprint was “of value for identification” during the analysis

       12  See, e.g., John I. Thornton, “The One-Dissimilarity Doctrine in Fingerprint
Identification,” Int’l Crim. Police Rev. 306 (1977): 89, 93-94 (“Let us acknowledge that the one-
dissimilarity doctrine has never been demonstrated to have originated from a firm scientific
basis. Once we recognize this, we will not be forced to guess the manner of occurrence of
unexplained differences. In view of a preponderance of matching characteristics, one
dissimilarity isn’t important. What is important is that the doctrine has diverted our attention
from a more fundamental question: Given one or two unexplained dissimilarities, then how
many matching characteristics are needed to achieve an identification?”).




                                               10 

phase historically caused many examiners to be reluctant to use the
“inconclusive” conclusion during the evaluation phase; instead, if an examiner
was unable to identify or exclude a latent fingerprint that he had previously
determined was “of value for identification,” he would revert to the analysis
phase and declare the fingerprint to be of “no value.”13 To address this
concern, some forensic laboratories adopted “suitable for comparison” as the
standard for proceeding past the analysis phase, permitting broader use of
“inconclusive.” Some forensic laboratories using “suitable for comparison,” for
example, have expanded the use of “inconclusive” to effectively permit qualified
conclusions, such as “inconclusive, but with corresponding features noted.”

      Glenn Langenberg, a Certified Latent Print Examiner with the Minnesota
Bureau of Criminal Apprehension, has explained this relationship between
suitability determinations during the analysis phase and the use of
“inconclusive” in the evaluation phase as follows:

       It has been the author’s experience through both instructing
       students from various laboratories and from discussions at
       SWGFAST [Scientific Working Group on Friction Ridge Analysis,
       Study and Technology], that some agencies interpret inconclusive
       quite differently. Our agency has taken the position that the mark
       has some evidential value, but ultimately may not be identifiable.
       Under such circumstances, were the analyst to have the best
       known exemplars possible, but still could not effect the
       identification because there was insufficient quantity, quality, or
       specificity of feature in the mark, then the analyst would report
       inconclusive. At other agencies, under these circumstances, this
       mark would be re-evaluated and assessed as no value. In other
       words, if you cannot identify the impression, and additional
       exemplars will not help, then it is no value. The term value here
       clearly implies value for identification purposes. Under this
       interpretation, analysts would only use the term inconclusive when
       they cannot reach an opinion due to the quality of the exemplars
       or lack complete exemplars.14
       13   John Vanderkolk is the Regional Laboratory Manager for the Indiana State Police.
He is a member of SWGFAST, the scientific working group that sets guidelines and standards
for latent fingerprint examination, and the Chair of the Forensic Identification Standards
Committee of the IAI.
         14 Langenberg, “Performance Study of the ACE-V Process,” 248 n.10. The draft

SWGFAST standards similarly describe this relationship, stating that, where a latent
fingerprint is “of value for identification,” an inconclusive conclusion “occurs when an examiner
is unable to individualize or exclude due to an absence of complete and legible known prints
(e.g., poor quality fingerprints and lack of comparable areas)” and “means that the impression
needs to be reexamined using clearly and completely recorded known impressions.”
SWGFAST, Revised Draft for Comment, Standards for Examining Friction Ridge Impressions
and Resulting Conclusions § 4.3.2.3.1.



                                              11 

       The FBI Laboratory’s “of value for identification” standard similarly
affects its use of “inconclusive.” Unit Chiefs Soltis and Wieners initially told us
that the FBI Laboratory does not limit examiners’ use of “inconclusive” to
situations where there are technical problems with or distortions in the known
fingerprints. For example, both said that “inconclusive” could be available
where an examiner sees one or more differences between two fingerprints but is
not certain of the explanations for those differences, sees many similarities
between the prints, and does not want to throw away the latent fingerprint by
saying it is of “no value.” After further discussion within the Latent Print
Units, however, Unit Chiefs Soltis and Wieners clarified that this use of
“inconclusive” would be inconsistent with its requirement that latent
fingerprints be “of value for identification.” Under that standard, an examiner
could use “inconclusive” where there are similarities between known and
latent fingerprints, but the known prints do not contain reliable corresponding
areas for comparison. By contrast, if the latent fingerprint does not contain
sufficient reliable details to permit an examiner to make an identification, even
if given a reliable corresponding exemplar from the correct source, he must
return to the analysis phase (with appropriate documentation) and determine
that the latent fingerprint is of “not of value for identification.”

     The FBI Laboratory’s use of the “inconclusive” determination is discussed
in more detail in Chapter Two.

            4.     Verification

       Under Section 9.4 of the SOPs for Examining Friction Ridge Impressions,
verification is the “independent application of ACE to friction ridge prints by
another qualified examiner.” The FBI Laboratory requires verification of all
identifications by a second examiner, while verification of exclusions or
inconclusive determinations is optional. In a standard verification, the
verifying examiner is selected by a supervisor and is given the original
examination documentation, plus unmarked photos of the latent and known
fingerprints. The verifying examiner thus knows the conclusion reached by the
original examiner and which finger to look at in the known fingerprints when
beginning his analysis.

      Subsequent to the Mayfield error and the OIG’s report, the FBI
Laboratory adopted requirements to conduct “blind verifications” for certain
examinations. Under Section 9.5 of the SOPs for Examining Friction Ridge
Impressions, blind verification is “independent application of ACE to a friction
ridge print by another qualified examiner, who does not know the conclusion of
the primary examiner.” As discussed in more detail in Chapter Two, the FBI
Laboratory uses blind verification in cases presenting the greatest risk of error,
such as where a single latent fingerprint is identified, excluded, or deemed
inconclusive.



                                        12 

       Where a verifier or blind verifier disagrees with the original examiner’s
conclusion, the examiners are considered to be “in conflict.” The FBI
Laboratory’s current Conflict Resolution Procedures require the original and
verifying examiners to discuss the disagreement and “attempt to resolve the
matter to the agreement of all parties.” If the examiners are unable to resolve
their disagreement, the matter goes to the Unit Chief for resolution. According
to Unit Chief Soltis, if disagreements reach his level, he requires the conflicting
examiners to do a detailed ridge-by-ridge analysis to capture the cognitive
process used to reach their conclusions, and then to “trade papers” and study
what the other has done. If the examiners still are unable to agree, the Unit
Chief, the conflicting examiners, and a technically qualified third party attempt
to resolve the conflict. The third-party examiner reviews a copy of the
materials created by the original and verifying examiners, and then meets with
the examiners and the Unit Chief to discuss the examinations and try to reach
common ground, with the Unit Chief serving as the mediator. If the examiners
remain unable to settle their differences, the disagreement goes to the Section
Chief for resolution, and ultimately to the managing Deputy Assistant Director
(DAD), who requests that the Chief of the Quality Assurance and Training Unit
convene a Scientific Resolution Board (SRB) to resolve conflicts that cannot be
resolved at the Section Chief level, or to resolve issues or concerns that have
widespread or substantial impact on the FBI Laboratory. The Assistant
Director (AD) must approve or reject any recommendations made by an SRB
and direct other actions needed to resolve the conflict.

              5.     Documentation of ACE-V

       Section 12 of the SOPs for Examining Friction Ridge Impressions
requires examiners to create sufficient documentation, including annotated
photographs and case notes, to allow another examiner to evaluate the
examination and replicate any conclusions. The SOPs include specific
documentation requirements for each phase of the ACE-V process. The
current documentation requirements were significantly expanded following the
Mayfield error and the OIG report.15 These requirements are discussed in more
detail in Chapter Two in connection with the relevant recommendations.




       15 SWGFAST, which establishes latent fingerprint guidelines and standards, also has
substantially revised its documentation requirements since the Mayfield error. See SWGFAST,
Standards for the Documentation of Analysis, Comparison, Evaluation, and Verification
(ACE-V), February 12, 2010.




                                            13 

               6.     Reports of Conclusions

       The FBI Laboratory communicates the final results of latent print
examinations to the contributor in a Report of Examination. This report
includes a section containing the results, opinions, interpretations, and
conclusions of examinations conducted by a particular examiner, in addition to
case information and descriptions of the evidence received and examined. The
report provided to the contributor contains no information about disputed
verifications or blind verifications that are resolved through the FBI
Laboratory’s conflict resolution process, but newly adopted SOPs require such
information to be documented in the case file.

      Before the report is issued to the contributor, a senior forensic examiner
conducts and documents a technical review of the conclusions and supporting
documentation to ensure that the examiner has performed the appropriate
examinations; that the conclusions are consistent with the documented data,
supported by the documentation, and within the limits of the latent print
discipline; and that verifications and blind verifications have occurred and been
properly documented where required. The report and supporting
documentation are then administratively reviewed to ensure that information
from the case notes regarding the FBI Laboratory’s ultimate conclusions has
been adequately transferred to the final report.

               7.     Errors

      The latent print discipline historically has divided errors into
“methodological” and “human” errors, asserting that the ACE-V methodology
has a zero error rate, and that any errors are attributable to improper
application of the methodology by the examiner.16 The FBI Laboratory has
recently clarified this position, stating that the ACE-V methodology has no
calculable error rate because it has no inherent error, but ACE-V cannot be
applied without an examiner.17 Research is ongoing to develop a valid measure
of examiner error, but no consensus currently exists about whether to derive
individual error rates for each examiner based on proficiency test results or
error histories, or to define error rates more broadly based on laboratory audits
or the latent print discipline as a whole.



       16 See, e.g., United States v. Llera Plaza, Fed. R. Evid. 983 (E.D. Pa. 2002) (testimony

regarding distinction between methodological and human error), vacated and withdrawn, 188
F. Supp. 2d 549 (E.D. Pa. 2002).
       17 Peter E. Peterson, et al., “Latent Prints: A Perspective on the State of the Science,”
Forensic Science Communications 11, no. 4 (2009),
http://www2.fbi.gov/hq/lab/fsc/backissu/oct2009/review/2009_10_review01.htm (accessed
July 21, 2010).




                                               14 

       The FBI Laboratory considers erroneous identifications and exclusions to
be “analytical/interpretative errors” – that is, errors in the examination process
that produce an incorrect conclusion. FBI Laboratory procedures include
specific steps to address these types of errors. The person identifying an error
must notify his Unit Chief, who is required to have the examination
documentation reviewed by an examiner other than the original reviewer or a
technical reviewer to confirm that an error did occur. If the review concludes
that the original examination was in error, the Unit Chief must notify the Chief
of the Quality Assurance and Training Unit to initiate corrective or follow-up
action.

       For major errors having a fundamental impact on the quality of the
Laboratory’s work product, the FBI Laboratory initiates a corrective action and
assigns an employee to investigate the “root cause” of the error and determine
the actions necessary to remediate, correct, and prevent recurrence of it. The
FBI Laboratory also may initiate a corrective action for repeated minor errors.
Appropriate corrective actions may include notifying the contributor of the
error, issuing amended or supplemental reports, conducting casework reviews,
requiring remedial training or supplemental proficiency tests, or requiring
supplemental review of work before releasing the report. The FBI Laboratory
requires documentation of all corrective actions, including a written summary
of the “root cause” of the error.

       According to the FBI Laboratory, it has not issued a report containing
known errors by latent fingerprint examiners (including erroneous
identifications and exclusions) since the Mayfield error was discovered in 2004.

      C.    Cluster Prints

       Latent fingerprints sometimes appear in a relationship to one another
that permits the examiner to infer that the prints were deposited
simultaneously by different fingers on the same hand. These simultaneous
impressions, or “cluster prints,” have two primary uses in latent print
identification: allowing an examiner to determine the correct finger for an
IAFIS search or a comparison to a ten-print card and, in some forensic
laboratories, permitting identifications where the detail in each latent
fingerprint is insufficient to stand alone, but the cumulative detail in the prints
in agreement with the known fingerprints is sufficient to identify the source.

       The FBI Laboratory does not perform cluster identifications based on the
accumulative weight of the data in the prints, and it thus requires that one
latent fingerprint in the cluster provide sufficient detail to identify the source.
According to Unit Chief Wieners, current research has not provided a scientific
basis for performing cluster identifications where no one print contains
sufficient detail to identify, although studies to validate the technique are
ongoing. As a result, the FBI does not perform cluster identifications unless


                                        15 

the contributor sees probative value in determining that the prints are from
side-by-side consecutive fingers and specifically requests that the FBI perform
this analysis.


IV.	   Overview of the Mayfield Error and the FBI’s Responses

       A.	      The OIG’s Conclusions Regarding the Causes of the Mayfield
                Misidentification

      After the Madrid error came to light in May 2004, the OIG initiated a
review to determine the causes of the error, assess the FBI Laboratory’s
conduct, evaluate its responses to the error, and make additional
recommendations for changes in Laboratory procedures to prevent future
errors. The OIG’s review concluded that the primary causes of the
misidentification were the following:

             	 Unusual similarity between certain friction ridge details on one of
                Daoud’s known fingerprints and one of Mayfield’s known
                fingerprints.
             	 Bias or “circular reasoning” caused by the original examiner’s use
                of features he observed in Mayfield’s known fingerprint to change
                his original analysis of the Madrid latent fingerprint.
             	 Reliance on Level 3 detail to identify Mayfield without taking into
                account concerns about the quality of the latent fingerprint or
                differences in Level 3 detail in other areas of the prints, and
                without checking all copies of Mayfield’s known fingerprints to
                confirm that corresponding Level 3 features were reliably
                reproduced.
             	 Reliance on inadequate explanations for differences between the
                Mayfield known and Madrid latent fingerprints.
             	 Failure to consider the poor quality of the apparent similarities in
                Level 2 detail between the Mayfield known and Madrid latent
                fingerprints.
             	 Failure to reexamine the identification of Mayfield after the SNP
                informed the FBI that the Mayfield print was not a match in April
                2004.
The OIG determined that other factors, including a lack of objective criteria for
declaring an identification, potential bias in the verification process, and the
pressure to declare an identification inherent in a high-profile terrorism case,
did not clearly contribute to the Mayfield misidentification but nonetheless




                                           16 

created sufficient potential for future errors to warrant recommendations for
changes to Laboratory procedures.18

       B.	    The FBI Laboratory’s Responses to the Mayfield 

              Misidentification 


      After the misidentification, the FBI began significant corrective measures,
including convening a panel of latent print experts to review the case file and
evaluate its handling of the Mayfield matter, forming a committee to review the
scientific basis for latent print identification and recommend research projects,
and assembling “latent review” teams to evaluate the FBI’s latent fingerprint
procedures and operations. The latent review teams produced
recommendations addressing 41 separate issues, the most significant of which
the OIG considered and incorporated in its 2006 review.

       In addition to the recommendations incorporated into the OIG’s review,
which are discussed in the next chapter, the latent review teams proposed
major changes to the training of latent print examiners, including providing
comprehensive training on friction ridge theory and application of the ACE-V
methodology. In response, the FBI Laboratory made substantial revisions to its
training of latent print examiners, producing a training program that differs
significantly from the one in place before the Mayfield error. According to
examiners familiar with the training used before the Mayfield error, new
examiners received 6 months of intensive classroom training, but the ACE-V
component of that training lasted about 4 hours and did not include
information about the theory and science underlying the ACE-V methodology.
By contrast, the ACE-V training now provided to new examiners takes up 6
weeks of the 6-month classroom curriculum. It includes lectures about each
phase of the ACE-V process, as well as topics such as friction ridge biology and
embryology and comparative biology to give examiners an understanding of
how skin develops and how it can and cannot move. Concepts taught during
lectures are then reinforced through practical applications of the theories, such
as exercises that allow examiners to observe the pliability of skin and study
how distortion occurs. After completing 6 months of classroom training and a
comprehensive written test, examiners begin doing comparison exercises and
receive 1 year of on-the-job training under the supervision of mentors.

       C.	    Latent Fingerprint Research

      After the Mayfield error, the FBI Laboratory planned four major research
projects aimed at developing qualitative and quantitative standards for
determining sufficiency (whether a latent fingerprint contains a sufficient

       18 Please see OIG, The FBI’s Handling of the Brandon Mayfield Case, 127-194, for a full

discussion of the causes of the Mayfield error.




                                             17 

amount of information that only one source is capable of producing it),
demonstrating that friction ridge details are permanent and reproducible, and
testing and comparing examiner accuracy. As explained below, the FBI
Laboratory has completed or made substantial progress on the studies
assessing quality, permanence, and accuracy, and it recently received funding
for the study aimed at developing quantitative standards for the sufficiency of
conclusions as part of an umbrella contract with Noblis, Inc.19

           	 The Quality Metric study sought to develop an objective measure of
              latent fingerprint quality and is substantially complete.
              Approximately 86 experienced examiners each assessed the quality
              of a selected subset of 1,090 latent and corresponding known
              fingerprint images. A contractor then developed a software
              program that used the collective assessments of the examiners to
              create an algorithm for scoring the quality of other latent
              fingerprints. The FBI Laboratory contemplates that once this
              program is validated for case work, it will provide examiners with a
              quantitative tool for assessing the quality of latent fingerprints.
           	 The Permanence Study has tracked the permanence and
              reproducibility of friction ridge details in two phases, the first of
              which is complete. Phase I analyzed the persistence of friction
              ridge detail on the finger and in friction ridge impressions over a
              period of 6 months, concluding that the three levels of detail are
              persistent on the skin, but the appearance of Level 3 detail is not
              consistently reproduced in different friction ridge impressions,
              even between impressions captured on the same day. Phase II,
              which is ongoing, will study whether friction ridge detail is
              permanent over a period of 10 or more years.
           	 The “Black Box Examiner” study, which is complete, measured the
              accuracy and consensus of latent print examiner decisions, finding
              an accuracy rate of 99.8% for identifications and 85% for
              exclusions. The FBI Laboratory has emphasized that (1) this study
              evaluated examiners on key decision points in the fingerprint
              examination process, not the process in its entirety; (2) the
              fingerprints included in the study were selected to include a range
              of attributes and quality encountered in forensic casework, and to
              be comparable to searches of an automated fingerprint
              identification system (AFIS) containing more than 58 million
              subjects; and (3) independent verification of the same comparisons
              by different participants (analogous to blind verification)


       19 Noblis, Inc. is a nonprofit corporation that provides scientific, engineering, strategic,

and technology research and consulting to government and other clients.




                                                18 

                detected all false positive errors and the majority of false negative
                errors in the study.
               The Quantity Metric, or “White Box Examiner,” study will assess
                how the quantity and quality of corresponding features relate to
                identification, exclusion, and inconclusive determinations made by
                examiners, with the goal of developing a quantitative metric for the
                sufficiency of conclusions and creating software capable of
                measuring sufficiency for use by examiners.

       In addition to the FBI Laboratory’s research, other organizations are
conducting studies to measure examiner performance, determine quantitative
standards for sufficiency, establish a scientific method to quantify the accuracy
and error rates of latent fingerprint examination, and develop standardized
probability measures. In 2009, for example, the National Institute of Justice
(NIJ) awarded approximately $2.9 million in grants to researchers conducting
studies in these areas. Additionally, the National Institute of Standards and
Technology (NIST) has initiated research to develop latent fingerprint
identification technologies. Together, the NIJ and NIST have convened the
Expert Working Group on Human Factors in Latent Print Analysis. The
purpose of this group, which consists of latent fingerprint experts, statisticians,
psychologists, researchers, and other scientific and legal experts, is to conduct
a scientific assessment of the effects of human factors on latent fingerprint
analysis and to recommend strategies to prevent errors. According to the FBI
Laboratory’s response, representatives from the FBI Latent Print Units are
involved in this project, and they anticipate that the group will issue a report in
December 2011.


V.     Challenges to the Latent Fingerprint Discipline

       Even before the Mayfield error, the latent fingerprint discipline faced
challenges to the validity of its underlying science. In 1993, the Supreme
Court developed the Daubert test, requiring trial judges to serve as gatekeepers
for expert testimony regarding scientific, technical, or other specialized
knowledge.20 As a result of the increased scrutiny of scientific and technical
expert testimony, criminal defendants began to argue that latent fingerprint
identification is not supported by scientific research, is not governed by
objective standards, and is thus insufficiently reliable to be admitted under
Daubert.21 Although courts have, almost without exception, upheld the

       20  See Daubert v. Merrell Dow Pharm., Inc., 509 U.S. 579, 591-95 (1993); see also
Kumho Tire Co. v. Carmichael, 526 U.S. 137, 147 (1999) (extending Daubert analysis to all
expert testimony).
        See, e.g., Memorandum of Law in Support of Defense Motion to Exclude
       21

Government’s Fingerprint Identification Evidence, United States v. Mitchell, No. 96-407 (filed
                                                                                        (Cont’d.)


                                              19 

admissibility of latent fingerprint evidence in response to Daubert challenges,
the Mayfield error provided new support for defense challenges to claims that
latent fingerprint identification is “100% certain” and that the ACE-V
methodology has a zero percent error rate.22

       A 2009 report by the National Academy of Sciences (NAS) highlighted
many of these same issues.23 In this report, the NAS identified fundamental
problems with various forensic science disciplines, such as a lack of research
to validate basic premises and techniques. The NAS concluded that nuclear
DNA testing is the only forensic method “rigorously shown to have the capacity
to consistently, and with a high degree of certainty, demonstrate a connection
between evidence and a specific individual or source.” Regarding latent
fingerprint analysis, the NAS panel stressed the lack of documentation and the
purported divide between methodological and human error as two of its major
concerns. More fundamentally, the report observed that the ACE-V
methodology does not guard against bias or produce repeatable or reliable
results. The report stated that ACE-V is not specific enough to qualify as a
scientifically validated method for friction ridge analysis, noting the lack of


Oct. 27, 1998); see generally Paul C. Giannelli, “Scientific Evidence in Criminal Prosecutions,”
Brooklyn L. Rev. 75, Summer 2010: 1137, 1140-1145 (discussing history of challenges to
forensic evidence under Daubert).
       22  Every circuit that has considered the admissibility of latent fingerprint evidence has
held that it is reliable. See United States v. John, 597 F.3d 263, 274-75 (5th Cir. 2010) (latent
print evidence is sufficiently reliable to be admitted in most cases without a Daubert hearing);
United States v. Havvard, 260 F.3d 597, 601 (7th Cir. 2001) (fingerprint analysis is generally
accepted, has a low rate of error, and can be objectively tested); see also United States v.
Baines, 573 F.3d 979, 989-92 (10th Cir. 2009); United States v. Spotted Elk, 548 F.3d 641, 663
(8th Cir. 2008); United States v. Vargas, 471 F.3d 255, 265-66 (1st Cir. 2006); United States v.
Abreu, 406 F.3d 1304, 1307 (11th Cir. 2005); United States v. Mitchell, 365 F.3d 215, 246 (3d
Cir. 2004); United States v. Crisp, 324 F.3d 261, 268 (4th Cir. 2003). In at least two federal
district court cases, however, courts have limited or excluded testimony about latent
fingerprint identification based in part on the Mayfield error. See United States v. Zajac, No.
2:06-cr-00811 (D. Utah Sept. 13 and 16, 2010) (court issued order limiting latent fingerprint
testimony and prohibiting opinion regarding individualization and permanence following
Daubert hearing testimony about the role of bias and circular reasoning in the Mayfield error);
cf. Maryland v. Rose, Case No. K06-0545, Mem. Op. at 5-9, 24-25, 28-31 (Balt. Co. Cir. Ct. Oct.
19, 2007) (citing Mayfield error as basis for characterizing expert testimony regarding absolute
certainty and zero error rate for latent fingerprint identifications as “not credible” and excluding
latent print evidence under pre-Daubert standard for admission of expert testimony). But see
United States v. Rose, 672 F. Supp. 2d 723, 725-26 (D. Md. 2009) (rejecting argument that the
Mayfield error called into question the reliability of the ACE-V methodology).
       23 NAS, Strengthening Forensic Science, 87-88, 103-06, 136-45. The National Academy
of Sciences (NAS) is a nonprofit society engaged in scientific and engineering research.
Congress established the NAS in 1863 to “investigate, examine, experiment, and report upon
any subject of science or art” upon request by any department of the government. The
operating arm of the NAS, the National Research Council (NRC), conducts most of its science
policy and technical work.




                                                20 

information regarding the similarity of friction ridge features across a
population to support the premises underlying claims of individualization, the
lack of data about the discriminating value of various ridge formations and
clusters of ridge formations, and the lack of supporting data and standardized
criteria for distinguishing between a difference caused by distortion and a
discrepancy. The NAS Report also questioned the deferential approach taken
by the courts in admitting latent fingerprint evidence despite a lack of studies
supporting its reliability, noting that courts have “give[n] fuel to the
misperception that the forensic discipline of fingerprinting is infallible” and
have relied upon “assumptions about fingerprint evidence [that] had been
reached without the scientific scrutiny being accorded DNA.”

       In response to the NAS Report, the White House Office of Science and
Technology Policy, National Science and Technology Council Committee on
Science, created a Subcommittee on Forensic Science to develop strategic plans
for improving forensic science capacity, infrastructure, standards, and quality
management. The Subcommittee works through five interagency working
groups, including a working group assigned to identify and prioritize forensic
science research needs. These working groups have members from 13 federal
agencies and recently added non-federal participants, such as lawyers,
statisticians, academic experts, and state and local forensic science
practitioners. The Subcommittee is scheduled to report on the feasibility of
implementing the NAS recommendations by September 2011.




                                       21 

                      CHAPTER TWO 

     THE FBI LABORATORY’S IMPLEMENTATION OF THE OIG’S 

                    RECOMMENDATIONS 

      In this chapter, we describe each of the 18 recommendations we made in
our initial review of the Mayfield error, explain the basis for each
recommendation, and assess the FBI Laboratory’s progress in implementing it.
We also explain what steps remain necessary to address the concerns
underlying the recommendation.

       The sections below generally correspond to the organization of the
recommendations made in our initial report. Section I discusses the FBI
Laboratory’s implementation of research projects recommended by the OIG and
the FBI Laboratory’s “Latent Review Teams.” Section II addresses the FBI
Laboratory’s revisions to its Standard Operating Procedures (SOPs). Section III
discusses changes to its documentation requirements. Section IV examines
verification and blind verification procedures implemented by the FBI
Laboratory after the Mayfield error. Section V discusses special reviews of
casework performed by the FBI Laboratory to ensure that similar errors had
not occurred. Section VI discusses changes to the FBI Laboratory’s procedures
for ascertaining and documenting the causes of errors.

       In general, we conclude that the FBI Laboratory has made significant
progress in implementing our recommendations. Based on changes made to
its SOPs, manuals, and training materials after the Mayfield error and in
response to concerns we identified during our follow-up review, 17 of our
recommendations can be closed without further action by the FBI Laboratory.
The FBI has resolved the remaining recommendation by working with DOJ’s
Criminal Division to complete a review of capital cases in which the FBI
Laboratory performed latent fingerprint analysis before substantial revisions to
its procedures went into effect in 2006. When this review is completed, the
remaining recommendation can be closed.


I.     Recommended Research Projects

      After the Mayfield error, the Latent Review Teams reviewed the science
underlying latent fingerprint identification and recommended research projects
including:

         	 Research aimed at developing and testing a minimum quantitative
            threshold;
         	 Research to test the hypothesis that Level 2 and Level 3 details
            occur on friction ridges as independent, random events;



                                       22 

            	 Testing examiner performance in a rigorous, controlled manner to
               determine accuracy of performance;
            	 Comparison of the performance of examiners using a subjective
               approach to those using a minimum point threshold; and
            	 Research to determine the permanence of Level 3 details and
               features on the lower joints, soles, and palms.
We suggested two modifications to these proposed research projects: shifting
emphasis from permanence to reproducibility of Level 3 detail and conducting
research aimed at developing objective criteria for declaring identifications and
providing scientific validation for the FBI Laboratory’s methods of latent print
examination.

      A.	     Recommendation 1: Shifting Research Emphasis from
              Permanence to Reproducibility of Level 3 Details (Closed)

       We recommended that the FBI Laboratory shift some of its research
emphasis from the permanence of Level 3 detail on the finger to the
reproducibility of Level 3 detail in latent fingerprints. The goal of this shift was
to test whether Level 3 detail is present in latent fingerprints with sufficient
consistency and reliability of appearance to serve as a valid basis for
identification. We believed that focusing on the reproducibility of Level 3
details would enable the FBI Laboratory to define the circumstances under
which examiners should use Level 3 details.

        The FBI Laboratory has implemented this recommendation. The FBI
Laboratory has completed Phase I of its Permanence Study and has provided
the results to us in draft format. The study focused in part on whether
fingerprints provide consistent and reliable representations of the three levels
of friction ridge detail. The study concluded that Level 3 detail, while
permanent on the finger, is not consistently reproduced in different friction
ridge impressions, and that its appearance in fingerprints depends on the
capture method, the pressure applied, and the resulting image quality.

       In response to the study, the FBI Laboratory has changed its training
materials to emphasize that the presence of Level 3 detail is an indication of
the clarity of the print and to warn examiners that they should rely on it “[o]nly
when a latent fingerprint is very clear, with similar deposition pressure as the
exemplar.” According to examiners we interviewed, the deposition pressure of
a latent print as compared to an exemplar is determined by comparing
thickness of the ridges and the furrows in the latent print and the exemplar.

      As previously noted, Phase I of the FBI’s Permanence Study analyzed the
persistence of friction ridge detail on the finger over a period of 6 months,
concluding that the three levels of detail are persistent on the skin. We note
that 6 months is a relatively short period of time over which to measure the


                                         23 

question of permanence in Level 3 details. A large proportion of fingerprint
examinations involve comparing exemplars with latent prints that were made
far more than 6 months apart. Moreover, the fact that initial results indicate
that Level 3 features are persistent on the finger over 6 months does not
preclude the possibility that they may change more significantly over a long
period of time. Phase II of the permanence study will address this issue over a
10-year period.24 Taking into consideration the FBI Laboratory’s commitment
to this research, we determined that this recommendation should be closed.

       B.	    Recommendation 2: Research to Develop Objective Criteria
              for Declaring Identifications and to Provide Scientific
              Validation for Latent Print Examination (Closed)

       We also agreed with the Latent Review Team recommendation that the
FBI Laboratory conduct research directed at developing objective criteria for
declaring identifications and at providing scientific validation for the FBI
Laboratory’s methods of latent print examination. The goal of this research
was to address issues raised by critics of the latent fingerprint discipline in
general, and the “holistic” standard used at the FBI Laboratory in particular.
We believed that the development of more objective criteria for identifications
would provide a greater margin of safety in latent fingerprint identifications
than is provided by a wholly subjective approach in which an examiner’s initial
or “gut” reaction might lead him to overlook important ambiguities or
differences between latent and known fingerprints.

       As discussed above, the FBI Laboratory completed a Quality Study that
produced software designed to generate an objective score of latent fingerprint
quality based on examiner consensus, called Latent Quality Assessment
Software (LQAS). The FBI Laboratory has not, however, developed guidelines
for how examiners should use LQAS to assist in assessing the quality of a
latent fingerprint to determine whether it is “of value for identification” or to
ascertain the amount of corresponding information needed to warrant an
identification.25 While such decisions would appear to be premature at this
time given that the FBI Laboratory is still in the process of validating the
software, examiners would benefit from having an objective measure to inform

        24 We note fingerprint records available to the FBI likely include many instances in

which multiple versions of known fingerprints were recorded from one individual many years
apart, such as prints taken during two different arrests. Although the FBI Laboratory would
not be able to control the recording techniques or conditions, this existing information would
appear to provide a ready-made data set from which to examine the issue of permanence over
time.
       25 See SWGFAST, Revised Draft for Comment, Standards for Examining Friction Ridge
Impressions and Resulting Conclusions § 5.3.4 (“The sufficiency graph reflects the interplay
between quality and quantity of minutiae and its relation to the decision thresholds and levels
of complexity based on a consensus of collective experience.”) [internal citations omitted].




                                              24 

and support decisions about the quality of a latent fingerprint, and validation
should be a priority.

       The FBI Laboratory has not begun research aimed at developing a
quantitative standard for the sufficiency of conclusions, and it continues to
assess sufficiency based on the relationship between the quality of the latent
fingerprint and the number of corresponding details present rather than a
standard, objective threshold. While this approach relies upon informal norms
developed based on the training, experience, and common sense of the
examiner, it also illustrates the subjectivity and lack of standardization cited by
critics.26 Research into the relationship between the quantity and quality of
corresponding features and examiner conclusions is necessary to develop
formalized measures of sufficiency and to support the reliability and
repeatability of examiner conclusions.

      We note, however, that factors other than the OIG’s Recommendations
provide an incentive for the FBI Laboratory or others to complete this research.
As discussed above, issuance of the NAS Report has prompted research to
validate the scientific basis for latent fingerprint examination, as well as White
House efforts to address the shortcomings of the forensic sciences as a whole.
Moreover, as discussed above, the NAS Report questioned the deferential
approach taken by the courts in admitting latent fingerprint evidence.27 Based
on these criticisms, challenges to the admissibility of latent fingerprint
testimony likely will continue, providing an additional motivation for the FBI
Laboratory to conduct the necessary research.

       We also note that, even without objective standards for sufficiency, the
FBI Laboratory has adopted other measures intended to reduce the risk that an
examiner’s “gut” reaction might lead to an incorrect conclusion, including
linear application of the ACE-V methodology; a disciplined, ridge-by-ridge
approach to the analysis phase; separate documentation of the analysis and
comparison phases; and blind verification in certain cases, including cases
involving single identifications (like Mayfield) with the highest risk of error.

       Research to develop objective criteria for declaring identifications will
likely take many years to complete. The FBI and others in the field have
abundant incentive to pursue such research, although the long-term
availability of adequate funding is unknown. Taking into consideration the FBI
Laboratory’s commitment to this research, we determined that this
recommendation should be closed.


       26 See, e.g., Jennifer L. Mnookin, “The Courts, the NAS, and the Future of Forensic
Science,” Brooklyn L. Rev. 75, Summer 2010: 1209-1275.
       27   NAS, Strengthening Forensic Science, 102-06 and n.79.




                                              25 

II.	   Revision of the Standard Operating Procedures (SOPs)

       At the time of the Mayfield misidentification, the documents governing
the FBI Laboratory’s latent print operations (the SOPs for Examining Friction
Ridge Impressions, the SWGFAST Friction Ridge Methodology for Latent Print
Examiners, and the SWGFAST Standards for Conclusions) were vague. They
did not define the analysis or verification process, provide step-by-step
directions for each phase of ACE-V, or require detailed documentation in the
case notes. As a result, although the examiners involved in the
misidentification made errors, we concluded that they did not contravene any
procedures or requirements set forth in the FBI Laboratory or SWGFAST
standards. Nothing in the FBI Laboratory and SWGFAST documents, for
example, required examiners to complete analysis of the latent fingerprint
before moving to the comparison phase to avoid bias, or prohibited the circular
reasoning and selective use of Level 3 detail that contributed to the error.

       After the misidentification, one of the Latent Review Teams conducted a
detailed review of the FBI Laboratory’s SOPs and recommended major
revisions. The OIG agreed with these proposed changes, also noting that the
SOPs in effect at the time of the Mayfield misidentification contained no
provisions addressing the specific causes of the error. As a result, we
recommended that the FBI Laboratory make additional changes to the SOPs.
We address the FBI’s response to the recommendations for changes to the
SOPs in this section.

       As discussed in more detail below, the FBI Laboratory has made
substantial revisions to its SOPs, and it continues to review and update its
standards each year. It has not implemented every change recommended by
the OIG, however, and Unit Chiefs Soltis and Wieners stated that this decision
was motivated in part by concerns about keeping the SOPs to a usable length.
Instead, the FBI Laboratory has chosen to incorporate some of our
recommendations in its training materials, while it has addressed the concerns
underlying other recommendations through broader changes to its application
of the ACE-V methodology.

       A.	   Recommendation 3: Major Revisions to the SOPs to Provide
             Specific Standards for Conducting Latent Fingerprint
             Examinations (Closed)

      We agreed with the Latent Review Team recommendation that the FBI
Laboratory add detail to the definitions and processes in each phase of ACE-V,
but we also recommended revisions to prohibit or discourage the specific
practices that contributed to the error, such as circular reasoning and “cherry-




                                       26 

picking” of Level 3 details.28 We recommended that the FBI Laboratory, in
making these revisions, consult INTERPOL’s “Method for Fingerprint
Identification” (Parts 1 and 2), as an example of a standard for examinations
that provided a much higher level of detail in the description of examination
steps and the application of principles of identification than is available in the
existing SOPs and the SWGFAST Methodology and Standard.

       Since the Mayfield error, the FBI Laboratory has substantially revised its
SOPs for Examining Friction Ridge Impressions, adding 16 pages of content. In
particular, the revised SOPs include separate sections for each step of the
ACE-V methodology. Section 9.1 of the SOPs, for example, instructs examiners
conducting analysis of a latent fingerprint to analyze it for evidence of
distortion, determine whether it is “of value,” and document the data used
during analysis and the orientation of the print. Section 9.2 describes the
specific actions required during the comparison phase, and Section 9.3 defines
the three conclusions available to examiners. Additionally, Sections 9.4 and
9.5 outline the responsibilities of each party involved in the verification or blind
verification process and provides specific instructions for the documentation
and communication of results. We believe that these revisions represent
significant progress.

       The SOPs for Examining Friction Ridge Impressions do not explicitly
prohibit circular reasoning or “cherry-picking,” or require examiners to assign
lesser individualizing value to characteristics that the examiner was unable to
identify until the comparison phase. However, the revised SOPs do include
some steps to avoid bias: examiners must complete and document analysis of
the latent fingerprint before looking at any known fingerprint; examiners must
separately document any data relied upon during comparison or evaluation
that differs from the information observed during analysis; and verifiers or
blind verifiers must separately complete and document their ACE examination.
The FBI Laboratory refers to this approach as “linear” ACE-V, and Unit Chiefs
Soltis and Wieners stated that it eliminates circular reasoning and “cherry-
picking” by requiring examiners to identify the characteristics present in a
latent fingerprint during analysis before moving to the comparison phase,




       28  Circular reasoning is the use of data from the known fingerprint to influence the
characteristics observed in the latent fingerprint. It is a form of confirmation bias or “mindset”
that can lead to unintentional false identifications. In the Mayfield error, for example, the
original examiner encoded seven Level 2 details in the latent fingerprint before being exposed to
any candidate fingerprints. After running an IAFIS search and viewing Mayfield’s fingerprint,
the examiner changed his interpretation of five of these seven points. Additionally, similarities
between the Madrid latent fingerprint and Mayfield’s known fingerprint led the examiner to see
other similarities that were not actually present.




                                               27 

rather than “parachuting in” and noticing similarities between the latent and
known fingerprints.29

       The SOPs for Examining Friction Ridge Impressions do not include as
much detail about detecting and comparing specific friction ridge
characteristics as does the INTERPOL Method. For example, the INTERPOL
Method (Part 2) includes guidance on analyzing the individualizing value of
certain minutiae, differentiating between types of ridge formations,
reconstructing ridge flow, and marking corresponding points. The INTERPOL
Method also states that circular reasoning “is a scientific fallacy” and “has to
be strictly avoided,” and it provides techniques for avoiding bias.

       The FBI Laboratory, however, addresses many of these topics in its
training modules. For example, one training module states that bias and
mindset become major concerns when dealing with complex prints, which the
SOPs define as latent or known fingerprints exhibiting poor quality, irregular
substrate, excessive deposition or lateral pressure, or limited Level 2 detail.
The training materials provide techniques for avoiding bias, such as tracing the
entire unknown print before looking at the known, reconstructing the
deposition pressure to “reverse engineer” distortions, or turning the print
upside down or looking at it obliquely to get a different perspective. Although
nothing in the training materials assigns lesser individualizing weight to
characteristics identified in the latent fingerprint during the comparison phase
rather than in the analysis phase, trainers tell examiners that “Any ‘re-
analysis’ made during the comparison stage of ACE-V should be treated with
caution.”

       Because Unit Chief Soltis told us that examiners are more likely to
consult the SOPs than the training materials if they have a question, we would
prefer similar language addressing bias and circular reasoning in the SOPs.
Nonetheless, the Laboratory’s modifications of its SOPs and training modules
sufficiently address the OIG’s concerns to permit this recommendation to be
closed.

       B.     Recommendation 4: Explanations for Differences (Closed)

      One major cause of the Mayfield error was the FBI Laboratory’s reliance
on explanations for differences in appearance between the Madrid latent
fingerprint and Mayfield’s known fingerprint that were not consistent with the

       29  See, e.g., Itiel E. Dror, “How Can Francis Bacon Help Forensic Science? The Four
Idols of Human Biases,” Jurimetrics 50 (2009): 100-101 (stating that a strictly linear approach
to ACE-V in which no “re-analysis” is allowed may be “throwing the baby out with the
bathwater,” and speculating that a solution to bias may be requiring initial analysis of the
latent fingerprint in isolation from the known fingerprints, but also permitting, with clear and
detailed documentation, some “re-analysis” of the latent print after comparison).




                                              28 

available physical evidence. In particular, examiners attributed differences in
the upper left quadrant of the two prints to a “double tap,” despite a lack of
evidence of deposition pressure or movement to support that explanation, and
failed to account for differences in ridge shapes and in distances between
purported corresponding points that could not be explained by distortion. As a
result, examiners interpreted these differences as explainable dissimilarities
rather than as discrepancies requiring exclusion.

       To address this concern, we recommended that the FBI Laboratory revise
its SOPs for Examining Friction Ridge Impressions to require examiners to
justify their explanations for differences on the basis of objective information
and to attain a standard of certainty for those explanations equal to that
required for identifications. We believed that accepting plausible or reasonable
explanations supported by mixed evidence was inconsistent with the certainty
claimed for identifications, and that the appropriate conclusion was
“inconclusive” or “exclusion” where the examiner was unable to achieve the
requisite certainty for explanations for differences.

      At the beginning of our follow-up review, the FBI Laboratory had not
revised the SOPs for Examining Friction Ridge Impressions to address the
standard of certainty required for explanations for differences. The SOPs
required that examiners evaluate the quality of a fingerprint and identify and
document signs of distortion during the analysis phase. They also encouraged
examiners to document explanations for differences observed during complex
comparisons and stated that “[d]istortion is not a discrepancy and is not a
basis for exclusion.” The SOPs, however, provided no guidance on how to
distinguish between an explainable difference and a discrepancy.

      The FBI Laboratory instead had chosen to address this issue in its
ACE-V training materials rather than in its SOPs. For example, one training
module told examiners that there must be a “rational explanation supported by
physical evidence” for differences between latent and known fingerprints, or
that differences must be explainable based on “the available data” or
“observations from analysis.” Other training materials warned against complex
explanations for differences, stating, “Complex events are less likely to occur
than simple ones, therefore the simpler explanation is usually the most valid
one,” and “If you have to ‘explain’ the majority of a print to make a match, then
maybe you should think again.” These training materials, however, did not
require a specific standard of certainty for explanations for differences, nor did
they explain how examiners should determine whether a difference is
explainable where the physical evidence is mixed.

      While the examiners we interviewed told us that they have to be “very
certain” of their explanations for differences to declare an identification, and
the “rational explanation” standard set forth in the training materials in place
at the beginning of this review is consistent with the language used in the


                                       29 

INTERPOL Method, we believed that additional guidance was necessary.30
Specifically, we believed that the SOPs or the training materials should be
modified to require that the examiner’s certainty in each explanation for a
difference must be consistent with the degree of certainty required for an
identification. To address our concern, the FBI Laboratory has updated its
SOPs and training materials with the following language:

       § 9.3.1 Identification

             	 An examiner must be confident that any apparent difference
                between two prints is due to distortion, and not an actual
                difference in friction ridge detail. This level of confidence must be
                consistent with the degree of confidence an examiner must have in
                order to render an identification decision.
The FBI Laboratory has added the same language to its training materials.
This modification permits this recommendation to be closed.

       C.	      Recommendation 5: Revision of the SOPs to Provide Guidance
                on the Use of Level 3 Detail (Closed)

       We identified faulty reliance on Level 3 detail as a major cause of the
Mayfield error. In making the identification of Mayfield, examiners needed to
consider matching Level 3 detail, relying on a pair of incipient dots considered
to be a “very persuasive” corresponding feature, as well as pores and groups of
pores found on ridge formations. Many of these apparent Level 3 details,
however, were the result of distortions or variations in the latent or known
fingerprints. For example, several experts concluded that the Madrid latent
fingerprint was not of sufficient quality to support any reliance on Level 3
detail, and the two dots interpreted as a corresponding feature were present
only in one set of Mayfield’s rolled prints, but not in flat impressions taken the
same day or in another set of Mayfield’s rolled prints. Examiners also did not
take into account or seek to explain differences in Level 3 detail, instead
considering them to be within the tolerance of variability in appearance.

       As a result, we recommended that the FBI Laboratory revise the SOPs for
Examining Friction Ridge Impressions to define when the clarity of a latent
fingerprint is sufficient to support reliance on Level 3 details. To address the
specific practices that caused the improper use of Level 3 detail, we
recommended that the FBI Laboratory revise the SOPs to require that
examiners (1) consult all versions of the available known fingerprints to
determine whether Level 3 details utilized to support an identification are

       30  INTERPOL Method, Part I (2000) and Part II § 8.5 (2004) (requiring rational
explanation for differences between latent and known fingerprints based on “findings or facts”
or on “facts and circumstances that are demonstrable”).




                                              30 

reliably and repeatably reproduced, and (2) apply “fair reasoning” in the use of
Level 3 detail so that when a dissimilarity is “explained away” on the basis that
the information is not of sufficient quality to be reliable, information of equal
quality also should not be deemed valid and used as the basis to find a
similarity.

       The FBI Laboratory had not made these revisions at the outset of our
follow-up review. While the SOPs for Examining Friction Ridge Prints stated
that Level 3 detail is used in conjunction with Level 1 and Level 2 detail to form
a conclusion, and required that examiners assess the effects of distortion on all
three levels of detail, they otherwise did not define when and how examiners
should use Level 3 detail. Nor did the SOPs require examiners to check all
available versions of the known prints or to apply “fair reasoning” in the use of
Level 3 detail.

       The FBI Laboratory did provide guidance in its training materials on use
of Level 3 detail. Unit Chiefs Soltis and Wieners told us that the FBI remodeled
its ACE-V training to emphasize that Level 3 detail is “transitory” (not reliably
reproduced in both known and latent fingerprints) and depends on the overall
quality of the print. One training slide, for example, instructed examiners to
carefully assess a fingerprint for distortion when looking at Level 3 detail and
cautioned that they should consider Level 3 detail “[o]nly when the latent print
is very clear, with similar deposition pressure as the exemplar.”

       The training materials, however, did not tell examiners to obtain all
versions of the known fingerprints or to apply “fair reasoning” when relying on
Level 3 detail to support an identification. According to Unit Chiefs Soltis and
Wieners, such explicit requirements were unnecessary. Examiners could and
did request copies of all known prints if they had a question, and trainees were
informed that they could go to the Criminal Justice Information Services
Division (CJIS) files and get more known prints to analyze. Unit Chiefs Soltis
and Wieners also explained that the “ridges-in-sequence” technique implicitly
requires “fair reasoning” because examiners must note all of the characteristics
in the latent fingerprint before moving to the comparison phase. Moreover,
they said that the risks that concerned the OIG are present in a small minority
of cases involving complex prints and single identifications, and other
procedures adopted since the Mayfield case, such as documentation and blind
verification requirements, would address those concerns.

      Our assessment of the FBI Laboratory’s response to our recommendation
regarding Level 3 detail was influenced by our understanding of the changing
way FBI examiners are using Level 3 detail. The examiners we interviewed told
us that they were extremely cautious in relying on Level 3 details during the
comparison phase, that they relied on agreement of Level 3 details in an
extremely small percentage of identifications, and that they would not let
agreement in Level 3 details be the deciding factor in declaring an identification


                                       31 

if there was insufficient Level 2 detail. We were told that under FBI Laboratory
procedures, Level 3 detail does not, on its own, provide a basis for an examiner
to identify or exclude a source.

      We believe that this conservative approach is appropriate in light of the
findings of the FBI’s Permanence Study that although Level 3 detail is
permanent on the finger, the appearance of Level 3 details such as ridge edge
shapes and pores in fingerprints may vary significantly depending on
deposition pressure and other factors. According to the Draft Permanence
Report, the appearance of Level 3 details, including “edge contour, ridge width
and pore placement on the ridge[,] varied significantly on the same subject
regardless of whether the prints were captured on the same date or from month
to month.” The prints that were the subject of this observation were made
under highly controlled conditions; it follows that the inconsistency in
appearance of Level 3 detail would be even greater for latent fingerprints
created accidentally. This variability poses obvious difficulties for relying on
Level 3 details in declaring identifications or exclusions.

       We thus continued to be concerned with the problem of “fair reasoning”
in Level 3 detail. Because deposition pressure and other factors can so easily
affect the appearance of Level 3 details, we believed that differences in
appearance in Level 3 details are readily explained away as distortions, even in
clear latent prints.31 Fair reasoning requires that the distorting influence of
deposition pressure also be taken into consideration in assessing similarities in
Level 3 details. Apparent similarities may be coincidences that are the product
of differences in deposition pressure. The danger of such misleading
coincidences is particularly great where the apparent similarities involve
singular features (such as a single Level 3 dot or a single unusually shaped
pore) rather than a series of connected Level 3 features in a unique pattern.

      We agreed that the linear “ridges in sequence” approach described to us
by Soltis and Wieners provides some assurance that fair reasoning will be
applied, by requiring the examiner to confront differences in appearance as well
as similarities. We remained concerned, however, about the lack of specific



       31  Indeed, Section 9.3.2 of the SOPs conspicuously did not require an exclusion in the
case of any discrepancy in Level 3 detail. In other words, the SOPs treated any differences in
appearance of Level 3 features as presumptive distortions, but permitted the use of Level 3
similarities to support identifications. This approach, if followed literally, could have resulted
in inadvertent cherry-picking of Level 3 similarities to support an identification while
disregarding all Level 3 differences as distortions. While the revised SOPs do not explicitly
address this issue, we believe that the changes to the SOPs and training materials discussed in
connection with Recommendation 4, specifying the degree of confidence required for
explanations for differences, and the additional documentation requirements for Level 3 detail
discussed below will reduce the likelihood of it occurring.




                                               32 

guidance about the use of Level 3 detail in the current version of the SOPs. To
address our concerns, the FBI has added the following language to the SOPs:

      § 8.3 Level Three Detail

            	 Because the appearance of level three detail is highly variable
               depending on deposition pressure and other factors, level three
               detail should be used to support an identification only when the
               corresponding area of the latent print is reliable and with similar
               deposition pressure as the exemplar. If level three detail is
               significantly relied upon to reach a conclusion it must be
               documented.

      § 9.1 Analysis

            	 If level three detail is a significant factor in determining a latent
               print to be of value, the level three detail relied upon to reach that
               decision must be documented.

      § 9.2 Comparison

            	 If level three detail is a significant factor in determining a latent
               print to be of value and the level three detail in the corresponding
               area of the available known [fingerprint] is not reliable, the
               examiner must check all available known prints on file to
               determine if the level three detail relied upon to support a
               conclusion is reliably and consistently reproduced.
The FBI Laboratory also added these points to its training modules.

       These modifications address our concerns regarding the use of Level 3
detail. This recommendation is closed.

      D.	      Recommendation 6: Disagreements with Other Law
               Enforcement Agencies (Closed)

       In April 2004, approximately 3 weeks before Mayfield was arrested on a
material witness warrant, the FBI Laboratory learned that the SNP disagreed
with its identification of Mayfield as the source of the Madrid latent fingerprint.
After receiving the SNP’s “negativo” report, representatives of the two agencies
met to discuss the differences between their conclusions. Our report
determined that the FBI Laboratory did not view this meeting as an opportunity
to learn more about the SNP’s position, but rather to explain its own position.
As a result, the FBI Laboratory did not take the SNP’s conclusions as seriously
as it should have.




                                           33 

       We concluded that the FBI Laboratory should have determined the basis
for the SNP’s disagreement and arranged for a new examination by an
unbiased examiner before re-committing to the validity of its original
conclusion. We thus recommended that the FBI Laboratory revise its SOPs or
other manuals to address disagreements with other forensic laboratories,
requiring that it (1) fully understand the reasons for disagreement by another
forensic laboratory and (2) assign new examiners to conduct a complete ACE-V
examination of the disputed print.

       The FBI Laboratory has implemented this recommendation. The
Laboratory Operations Manual now includes practices for handling scientific or
technical disagreements with other forensic laboratories. These practices
require that an examiner who learns of a disagreement inform and provide
documentation explaining the nature and extent of the conflict to his Unit
Chief. The Unit Chief and the Section Chief must review this documentation
and attempt to resolve the conflict with the other forensic laboratory or law
enforcement agency. The Unit Chief then must document any resolution of the
conflict. If the parties cannot achieve resolution, the Unit Chief must
document all aspects of the conflict, including the reasons why the conflict
remains unresolved and recommendations for further action, and bring the
matter to the attention of the managing Deputy Assistant Director (DAD). The
DAD will approve or reject the recommendations, or will direct other actions as
needed to resolve the conflict. If necessary, the DAD will discuss the
recommendations with the Assistant Director (AD). Once achieved, any
resolution must be communicated in writing to the other forensic laboratory or
law enforcement agency and in an electronic communication to all affected
FBI Laboratory parties involved in the conflict. The Latent Print Units (LPU)
also require blind verification of conclusions reached after an external
disagreement.

      While these procedures do not explicitly state that the FBI Laboratory
must fully understand the reasons for disagreement, we believe that the
documentation, communication, and blind verification requirements will
adequately ensure that the FBI Laboratory does not take a one-sided approach
to conflicts with other forensic laboratories. These procedures represent
important steps toward ensuring the accuracy of the FBI Laboratory’s
conclusions. Recommendation 6 can be closed.

      E.    Recommendation 7: Cluster Identifications (Closed)

       Although cluster identifications did not play a primary role in the
misidentification of Mayfield, the SNP concluded that the latent fingerprint
erroneously individualized to Mayfield was made at the same time as another
latent fingerprint found on the plastic bag, and it identified Daoud as the
source of both prints. The Latent Review Team recommended that the FBI
Laboratory detail the process for identifying cluster prints and require that at


                                       34 

least one area of the cluster meet the identification threshold on its own,
unless research is conducted to support the validity of combining minutiae
from several different fingerprints in the cluster. While we agreed with the
recommendation that the FBI Laboratory develop criteria for declaring that
latent fingerprints were deposited simultaneously, we questioned the
requirement that friction ridge detail on one finger stand alone. We thought
that this “stand alone” requirement potentially undermined a major rationale
for making cluster identifications – that is, to permit identification where the
pattern configuration of two or more latent fingerprints is consistent with
simultaneous deposition by the same hand but no single fingerprint in the
cluster contains sufficient information to identify the source.

       The SOPs for Examining Friction Ridge Impressions require that one area
of the cluster independently meet the threshold for identification. As a result,
the FBI does not do cluster identifications unless the contributor sees probative
value in determining if the prints were placed side-by-side by consecutive
fingers. Although this approach does not fully implement our
recommendation, we recognize that the FBI Laboratory has a valid basis to
require that one area of the cluster stand alone. According to Unit Chief
Wieners, current scientific research has not provided a basis for making cluster
identifications. One study, for example, found that examiners presented with
fingerprints from different fingers from the same source deposited at the same
time reached a correct conclusion only 88 percent of the time.32 Indeed, the
only court to have considered the admissibility of cluster identifications under
Daubert held that their use had not been generally accepted by the relevant
scientific community or validated by any study or scientific article.33 Given
that the FBI Laboratory’s current approach is more cautious and less likely to
result in erroneous identifications, we believe that the FBI Laboratory has
sufficiently addressed this recommendation, and it can be closed.

       F.	      Recommendation 8: Use of the “Inconclusive” Determination
                (Closed)

       We recommended that the FBI Laboratory revise the SOPs for Examining
Friction Ridge Impressions to clarify that the “inconclusive” conclusion is
available where an examiner, during the evaluation phase, is unable to achieve
adequate certainty either as to the quantity and quality of detail in agreement



        32 John P. Black, “Pilot Study: The Application of ACE-V to Simultaneous (Cluster)

Impressions,” Journal of Forensic Identification 56, no. 6 (2006): 933, 949-50, 952 (explaining
that participants were correct 88 percent of the time when they rendered a conclusive true or
false opinion, but that they rendered a conclusive response only 73 percent of the time and, as
a result, reached accurate results in only 64 percent of the examinations).
       33   See Commonwealth v. Patterson, 840 N.E.2d 12, 29-33 (Mass. 2005).




                                              35 

or the sufficiency of the explanations for differences. The following hypothetical
illustrates a situation in which this clarification would become relevant:

       An FBI examiner analyzes a latent print. He finds that it has Level 2
detail including (for example) 10 ridge deviations, with good clarity and no red
flags. It is deemed of value for identification. During the comparison phase,
the examiner finds agreement as to Level 1 and 2 details. If there were no
differences, these similarities would be sufficient in quality and quantity to
support an identification. However, the examiner finds a difference in
appearance: an apparent ridge deviation in the latent that cannot be found in
the corresponding location of the exemplar. There are a number of plausible
explanations for this difference, such as slippage or debris on the finger or
substrate, but the “physical evidence” to support these explanations is not
compelling. As a result, the examiner is uncertain whether the dissimilarity is
a discrepancy (potentially requiring exclusion) or a distortion (permitting
identification).

      The FBI Laboratory’s SOPs do not clearly permit the examiner to declare
an “inconclusive” in this hypothetical. Section 9.3.3 of the SOPs incorporates a
long-standing definition under which an “inconclusive” determination is
appropriate “when a qualified examiner is unable to identify or exclude the
source of a print because the corresponding areas of friction ridge detail are
absent or unreliable,” such as “when a corresponding area is not captured in
the available exemplar(s), or the corresponding area [of the exemplar] is
unusable due to distortion.” Under this definition, “inconclusive” is available
only when the known fingerprints are incomplete or distorted and examiners
potentially could reach a conclusion if given access to a better set of exemplars.
Indeed, the FBI examiners we interviewed all told us that they only use the
inconclusive conclusion because of problems with the known prints, not
because of uncertainty associated with potential explanations for differences.

       Despite the wording of the definition in the SOPs, Unit Chiefs Soltis and
Wieners initially told us that use of “inconclusive” would be available in
situations like Mayfield – that is, where an examiner is not certain of his
explanations for differences and sees many similarities between known and
latent fingerprints. Because we did not believe that this use of the
“inconclusive” decision was readily apparent from the SOPs, we recommended
that Section 9.3.3 of the SOPs be modified to make clear that examiners can
use the “inconclusive” determination when they are uncertain whether
differences in Level 1 or 2 details are discrepancies or the product of distortion
or are uncertain of their explanations for differences.

       In response, and after further discussions within the Latent Print Units,
the FBI Laboratory stated that this use of “inconclusive” would be inconsistent
with its requirement that latent fingerprints be “of value for identification.” The
FBI Laboratory stated that expanding use of “inconclusive” to circumstances


                                        36 

where examiners are uncertain of their explanations for differences could be
harmful, as it could lead to comparison of less reliable latent fingerprints
instead of a determination that those prints are of “no value.” Additionally,
Unit Chiefs Soltis and Wieners expressed concern that a broader use of
“inconclusive” could result in inappropriately providing a “maybe” to a jury
absent accurate, validated statistical models. According to Unit Chiefs Soltis
and Wieners, some forensic laboratories use “inconclusive with corresponding
features noted,” but the FBI Laboratory does not because of concerns about
potential bias and the risk of wrongful arrest or conviction.34

       However, a limited exception to the FBI Laboratory’s use of “inconclusive”
exists for national security cases. If a latent fingerprint is submitted to the FBI
Laboratory for intelligence purposes and examiners determine that the
fingerprint, based on all of the known fingerprints sent to them, is
inconclusive, the FBI Laboratory would communicate that information to the
investigators with the caveat that the determination could not be used in court
and that, if the latent fingerprint had to come back into the lab, it would be
examined by an entirely different group of examiners. Because of these factors,
any subsequent examiner could look at the latent fingerprint and determine
that it is of “no value.” We believe that similar safeguards could be made
applicable to communicating “inconclusive” determinations to investigators in
ordinary criminal matters.

       Additionally, we believe that allowing examiners to use “inconclusive”
where they are uncertain of their explanations for differences is not necessarily
inconsistent with the FBI Laboratory’s “of value” standard. Where, for
example, a latent fingerprint is of sufficient quality to be “of value” and has
many similarities to the known fingerprint, but has a distorted area that
prevents the examiner from conclusively declaring a match, deeming that
latent fingerprint to be of “no value” would be inappropriate. “Inconclusive”
should be available in such scenarios.



        34 Consistent with this approach, the FBI Laboratory recently has added the following

language to its SOPs to clarify its use of “no value” and require documentation changes from
“value” to “no value” during the comparison phase:
       § 9.2 Comparison
          	   If during comparison, an examiner determines that the unknown print does not
               contain sufficient reliable detail to reach an identification conclusion, then the
               Examiner must change his or her value decision to “no value” and document by
               single striking and initial[ing] the [symbol the examiners use to denote that a
               print is of value]. This does not include prints determined to be of “value” for
               exclusion only.




                                               37 

       As described on pages 9 and 10 above, Unit Chief Soltis stated that in a
hypothetical scenario involving a complex print in which the examiner is
uncertain whether the dissimilarity is a discrepancy (potentially requiring
exclusion) or a distortion (permitting identification), the examiner may
determine, after the comparison phase, that the latent print is “not of value for
identification.” The print is not discarded. This is the scenario for which the
OIG recommended the expanded use of the “inconclusive” conclusion. One
reason for making this recommendation was that the “inconclusive”
determination might permit the FBI to indentify the latent fingerprint later in
the event that known fingerprints for the true source of the print are discovered
(as happened in the Mayfield case). The FBI Laboratory’s “not of value for
identification” result would not entirely preclude this result, because the latent
fingerprint would not be discarded, but to make an identification in this
admittedly unusual situation would require the FBI to again reverse its
determination regarding whether the latent print was of value for identification.
The difficulty for the FBI in testifying regarding such an identification of a
latent fingerprint that the FBI previously determined to be “not of value for
identification” is obvious. The existence of the prior determination may be
required to be disclosed under Brady v. Maryland, 373 U.S. 83 (1963), under
which prosecutors are required to disclose certain material evidence that is
favorable to the accused. By contrast, a prior result of “inconclusive” arising
out of a comparison of the print with a different person’s exemplars would not
create the same difficulties. We acknowledge that our concern relates to an
extremely unusual circumstance, albeit one that potentially could arise in the
case of a difficult comparison such as the one in the Mayfield case.

       Nonetheless, we recognize that the relationship between a forensic
laboratory’s “of value” and “inconclusive” definitions represents an ongoing
difference of opinion in the latent fingerprint discipline. We appreciate that the
FBI Laboratory has adopted its standards in an effort to ensure that examiners
base their conclusions on reliable data. This recommendation is closed.

      G.    Recommendation 9: Elimination of the 12-Point Rule (Closed)

      At the time of the Mayfield error, the FBI Laboratory had a rule requiring
written supervisory approval for any identification based on fewer than 12
corresponding points of Level 2 detail. Although we concluded that additional
review required under this “12-point rule” would not have prevented the error
because examiners mistakenly assessed 15 points in agreement, we
nonetheless agreed with the Latent Review Team that the rule should be
eliminated. We believed that this numerical standard was inconsistent with
the “holistic” approach used by the FBI Laboratory and would be rendered
redundant by the FBI Laboratory’s research aimed at developing and testing a
minimum quantitative threshold.




                                       38 

       The FBI Laboratory has implemented this recommendation, having
eliminated the “12-point rule” in October 2005. As discussed above, the FBI
Laboratory has not begun research aimed at developing a quantitative standard
for the sufficiency of conclusions, and thus additional revisions are
unwarranted at this time. This recommendation is closed.


III.	   Documentation

       Two of the OIG recommendations related to documentation requirements
for latent print examination.

        A.	   Recommendation 10: Documentation of the ACE-V Process
              (Closed)

       At the time of the Mayfield misidentification, FBI Laboratory procedures
did not require documentation of the different phases of the ACE-V process,
only a statement of the conclusion. As a result, no complete contemporaneous
record existed of the criteria used to identify Mayfield or of examiners’
explanations of differences. The Latent Review Team conducting the review of
the FBI Laboratory’s documentation procedures after the Mayfield
misidentification concluded that the SOPs and manuals did not contain
sufficient detail pertaining to case-note documentation, resulting in a variety of
methods by which examiners documented their examinations and results.35 To
address these shortcomings, the Latent Review team made approximately 24
specific recommendations for revisions to the FBI Laboratory’s documentation
procedures, including requiring that examiners determine latent fingerprint
value during the analysis phase, document explainable dissimilarities and
discrepancies during comparison, and include sufficient detail in the case
notes and on annotated photographs to allow another examiner or supervisor
to evaluate the analysis and interpretations.

       We concluded that better documentation of the analysis and comparison
phases may have allowed the examiner and verifier to appreciate the
cumulative impact of dissimilarities and the low quality of similarities between
the latent and known fingerprints and avoid the erroneous identification of
Mayfield. As a result, we agreed with the Latent Review Team that more
rigorous documentation of the examination process was necessary. We
believed that requiring separate documentation of each phase of the ACE-V
process would help increase accuracy by requiring examiners to complete a
pre-comparison analysis phase, promoting reproducible application of the


        Melissa A. Smrz, et al., “Review of FBI Latent Print Unit Processes and
        35

Recommendations to Improve Practices and Quality,” Journal of Forensic Identification 56, no. 3
(2006).




                                              39 

criteria for identification or exclusion, providing full identification of differences
in appearance, and facilitating review of the causes of errors.

      The FBI Laboratory has made significant changes to the documentation
requirements in its SOPs for Examining Friction Ridge Prints. The SOPs now
require that examiners create sufficient documentation, including annotated
photographs and case notes, to allow another examiner to evaluate the
examination and replicate any conclusions, and they include specific
documentation requirements for each phase of the ACE-V process:

         	 Examiners must separately document the analysis phase on
            photographs and in case notes, including evidence of distortion
            and “red flags,” before moving to the comparison phase. During
            analysis, examiners also are encouraged to document poor quality
            latent or known prints, irregular substrate, excessive deposition or
            lateral pressure, or limited Level 2 detail. These types of factors
            suggest that abnormal distortion has produced “red flags”
            requiring complex analysis.
         	 Examiners also must separately document the subsequent phases
            of the ACE-V process. During the comparison phase, for example,
            an examiner using data from the latent fingerprint that he did not
            mark during the analysis phase must document that data on a
            second photograph rather than adding to the analysis
            documentation. The goal is to retain documentation of the
            analysis phase that is not “contaminated” with information
            observed during comparison to the known fingerprint.
         	 For complex fingerprints, such as those exhibiting excessive
            deposition or lateral pressure or made in an irregular substrate,
            documentation may include notations regarding consistencies,
            dissimilarities, pressure distortion, discrepancies, and other
            relevant information, as well as requests for consultation with
            other examiners.
         	 Examiners conducting IAFIS searches must document the
            searches in the case notes, stating any conclusions reached and,
            for comparisons resulting in identifications, must include print-
            outs of comparison screens containing marked minutiae.
         	 Examiners must mark their conclusions on photographs of the
            latent fingerprint and in the case notes with the appropriate
            annotations. For example, a latent fingerprint identified to a
            particular source would be marked on the photograph and in the
            case notes with the identification symbol and would indicate the
            correct anatomical source, the name of the individual, the FBI
            number or date of birth, and other biographical information.



                                         40 

             	 Examiners conducting verifications and blind verifications must
                separately document their examinations and conclusions on
                unmarked photographs and in the case notes.

       These changes represent substantial progress toward resolving our
concerns and address a key criticism of the latent print discipline as a whole.
Drs. Lyn and Ralph Haber, critics of latent fingerprint methodology, have noted
that contemporaneous bench notes of ACE-V examinations are rarely required
and rarely made.36 Additionally, criminal defendants have used the failure to
document ACE-V examinations as a basis to challenge the admissibility of
latent print evidence under Daubert.37 By requiring documentation of
examiners’ reasoning and conclusions, the FBI Laboratory better ensures the
reliability and accuracy of its work.

      We believed, however, that the FBI Laboratory should further modify its
SOPs to require that examiners document explanations for differences in Level
1 and Level 2 detail. The SOPs in place during the follow-up review stated that
documentation for complex fingerprints “may include” notations regarding
distortion, dissimilarities, and discrepancies, but this was not mandatory. The
FBI Laboratory has addressed our remaining concern by adding the following
language to Section 9.7 of the SOPs for Examining Friction Ridge Impressions:

       When a complex analysis or a complex conclusion results in an
       identification, examiners must document any explanation for
       differences in level one or two detail caused by apparent distortion
       and identify the supporting data for their explanation in the case
       record.
The addition of this language permits this recommendation to be closed.

       B.	      Recommendation 11: Documentation of the Analysis Phase
                and “Red Flags” (Closed)

      Although we generally agreed with the Latent Review Team
recommendations, we recommended that the FBI Laboratory refine the
proposed changes to the SOPs to require separate documentation of the
analysis phase on photographs and in case notes, including any “red flags”
indicating deposition and pressure distortion. We believed that this would help
prevent circular reasoning by preventing the examiner from using features

       36   Haber and Haber, Challenges to Fingerprints, 79-82, 176-77.
       37  Vargas, 471 F.3d at 265-66 (admission of latent print testimony despite examiner’s
failure to memorialize his analysis with notes was not plain error); New Hampshire v. Langill,
945 A.2d 1, 11 (N.H. 2008) (exclusion of latent print testimony based on examiner’s failure to
record examination in bench notes exceeded the trial court’s gatekeeping function, but lack of
documentation potentially served to undermine credibility and weight of testimony).




                                               41 

observed in the known fingerprint to influence his analysis of the latent
fingerprint. We recognized, however, that this requirement may not be
appropriate in the case of IAFIS searches that do not result in identifications;
we thus recommended that examiners be permitted to complete a preliminary
comparison to determine that one of the known prints obtained in an IAFIS
search is sufficiently similar to warrant a more comprehensive comparison
before completing documentation of the analysis phase.

       As noted above, the revised SOPs for Examining Friction Ridge
Impressions require examiners to document the analysis phase before moving
to the comparison phase. Although the SOPs do not explicitly use the term
“red flag,” they require examiners to identify and document factors causing
distortion, including excessive deposition or lateral pressure. The SOPs also
require examiners relying on data not marked during the analysis phase to
document that data on a second photograph rather than adding to the analysis
documentation, with the goal of retaining documentation of the analysis phase
that is not “contaminated” with information from comparison to the known
fingerprint. Although the SOPs do not require that examiners assign lesser
weight to data marked after comparison to a known fingerprint, the training
materials warn that “re-analysis” during the comparison stage should be
treated with caution.

       We noted in our initial review that creating a record of the analysis phase
could be burdensome in the case of IAFIS searches that do not result in
identifications. Nonetheless, the SOPs for Examining Friction Ridge
Impressions contain no exception for documenting analysis of latent
fingerprints that will be used in an IAFIS search. Instead, the SOPs for IAFIS
require that latent fingerprints searched in IAFIS be “of value” and that
examiners document all IAFIS searches, including those that do not result in a
comparison or identification, in an IAFIS Search Form Guide. Examiners also
must document any conclusions reached and include print-outs of comparison
screens containing marked minutiae for comparisons resulting in
identifications.

      These requirements represent significant improvements in the FBI
Laboratory’s procedures and are major steps toward reducing circular
reasoning and bias. This recommendation is closed.


IV.   Verification Procedures

       We made four recommendations relating to the FBI Laboratory’s
verification procedures in our original report.




                                       42 

      A.    Recommendation 12: Documentation of Verifications (Closed)

      At the time of the Mayfield misidentification, the FBI Laboratory
conducted verifications only for identifications, and examiners could select and
consult with the verifying examiner. As a result, the verifying examiner not
only knew he was reviewing an identification, but he knew whose conclusion
he was reviewing. Additionally, supervisors could select a second verifying
examiner if the first one declined to confirm the identification, all without
documentation. These factors were potential sources of confirmation bias, and
they contributed to a culture in which “[t]o disagree was not an expected
response.”

       The Latent Review Team concluded that these factors may have played a
role in the misidentification of Mayfield and recommended changes to the FBI
Laboratory’s verification procedures, including requiring that supervisors select
the verifying examiner and mandating an independent examination and
documentation of the verification. We found insufficient evidence to conclude
that the FBI Laboratory’s verification procedures were a contributing cause of
the Mayfield error, particularly given that three experienced FBI Laboratory
examiners and a court-appointed expert identified Mayfield as the source of the
latent fingerprint. Nonetheless, we agreed with the Latent Review Team’s
recommendations for changes to the verification procedures because they
would promote more thorough and unbiased examinations by verifiers in all
cases.

       The FBI Laboratory has implemented these changes. As discussed
above, while the FBI Laboratory continues to require verification of
identifications only, the verifying examiner is selected by a supervisor.
Although the verifying examiner knows the conclusion reached by the original
examiner, he is required to apply the ACE methodology to reach an
independent conclusion and to document his examination and conclusion on
unmarked photographs and in the case notes.

       While continuing to limit verifications to cases in which a subject has
been individualized potentially retains a source of confirmation bias, the FBI
Laboratory has taken steps to reduce the risk of bias in cases where the risk of
error is greatest. As discussed in more detail below, the FBI Laboratory has
implemented a requirement that certain conclusions be blind verified. We
believe that these measures, taken together, adequately address our
recommendation. Recommendation 12 is closed.

      B.    Recommendation 13: Blind Verifications (Closed)

      The FBI Laboratory did not conduct blind verifications at the time of the
Mayfield error. To address concerns that the verification process created bias,
the Latent Review Team recommended that the FBI Laboratory require one



                                       43 

blind verification per report and include a decoy latent print and a decoy
exemplar in the package given to the verifying examiner. Under the process
contemplated by the Latent Review Team, up to 10 percent of the blind
verification packages would contain “challenging” non-identifications, so that
the verifying examiner would know that there was a chance that none of the
prints in his package previously had been matched by another examiner.

       We recommended two modifications to the Latent Review Team’s
proposed changes: that the FBI Laboratory use decoy non-identifications in a
small percentage of all verifications, and that the original examiner be
uninvolved in choosing the decoy prints. We believed that these changes would
lessen bias by making examiners aware of the possibility that no identification
had been made and would improve the independence and objectivity of the
verification process.

       The FBI Laboratory has taken a different approach to conducting blind
verifications. During our follow-up review, we learned that the FBI Laboratory
discussed many approaches to blind verification in an attempt to find one that
would not cause excessive disruption to the pace of casework. Unit Chief
Wieners said, for example, that he worked with several examiners to create
decoy prints and find latent fingerprints and ten-print cards to replicate actual
comparisons, but these efforts were difficult and time consuming.

       According to Unit Chiefs Soltis and Wieners, the FBI Laboratory instead
decided to conduct blind verifications of “single conclusions,” when only one
unknown print is individualized, excluded, or declared “inconclusive,” following
comparison with one or more exemplars.38 According to the FBI, this focuses
resources on the situations presenting the highest risk of error and prevents
the verifying examiner from knowing the conclusion reached by the original
examiner without interrupting the workflow of the unit. Single identifications,
which pose the highest risk of a false positive, are both verified and blind
verified. The FBI Laboratory also requires blind verification of any analysis
change involving a single previously reported print, such as where examiners
disagree about the value of a latent fingerprint, and all final identification
decisions that required conflict resolution. Blind verifications may be
conducted for complex prints, where an examiner changes his opinion from
“value” to “no value,” or in any other situation at the discretion of a supervisor.



       38  The use of blind verification for cases involving single conclusions of “exclusion” or
“inconclusive” in the situation in which multiple prints have been identified to a particular
person is counterintuitive. However, requiring blind verification in these circumstances
ensures that blind verifiers receive a certain number of non-identifications, so as to prevent
them from assuming they are examining a latent print that has previously been identified to a
particular person by another examiner.




                                               44 

       The FBI Laboratory has taken additional steps to insulate the blind
verifier from the conclusion reached by the original examiner, including
requiring supervisors to select the examiners who conduct blind verifications,
selecting the blind verifier from a different team than the original examiner to
reduce the likelihood that he has overheard discussions about the case,
providing one unmarked copy of the photograph of the latent fingerprint to
avoid indicating that the original examination resulted in an identification, and
providing photographs rather than IAFIS screen images to avoid bias caused by
the knowledge that IAFIS “matched” the prints. These measures appear to
have been successful, as the examiners we interviewed told us that they were
unable to guess the original examiner’s conclusions when they receive a blind
verification package.

      While these procedures differ from our original recommendation, we
believe that they represent significant progress in reducing confirmation bias in
the cases presenting the highest risk of an erroneous identification and
address our underlying concerns. Recommendation 13 is closed.

      C.	   Recommendation 14: Second Independent Verification of
            Single Identifications Resulting from IAFIS Searches (Closed)

      We also recommended that the FBI Laboratory consider requiring a
second independent verification for single identifications resulting from an
IAFIS search. Although we recognized that this recommendation would target
an extremely narrow category of cases, such as the Mayfield case, we believed
it would address the situations posing the greatest risk and most significant
consequences of a false identification.

       Current FBI Laboratory procedures require that all single identifications,
not just those resulting from IAFIS searches, be verified and blind verified. In
light of the steps taken by the FBI Laboratory to ensure the independence of
verifications and blind verifications described above, such as requiring
supervisors to select examiners to perform verifications and blind verifications
and creating a culture in which examiners feel free to disagree, this fully
implements our recommendation. Recommendation 14 is closed.

      D.	   Recommendation 15: Use of Alternatives to “Dispute
            Resolution” in Refused Verifications (Closed)

      The Latent Review Team recommended that the FBI Laboratory
implement a “conflict resolution” process to resolve conflicting conclusions.
While we agreed that the FBI Laboratory should implement procedures to
address disputed verifications, we recommended that the FBI Laboratory
consider an alternative to treating disagreements among examiners as potential
errors requiring resolution. We believed that invoking “conflict resolution”
between the original examiner and the verifier potentially diluted the



                                       45 

verification requirement and created the possibility that one examiner would be
“talked into” agreeing with the other. To address these concerns, we
recommended that disputed verifications be subject to a full examination by
new examiners.

      The FBI Laboratory’s current approach to disputed verifications retains
both the “conflict resolution” terminology and the requirement that examiners
attempt to resolve their differences informally. As discussed above, where the
original and verifying examiners disagree about the conclusion, the Unit Chief
requires the examiners to “trade papers” and discuss the disagreement. Any
unresolved differences are referred up the chain of command to the Unit Chief,
Section Chief, and managing Deputy Assistant Director for resolution, with the
most intractable disputes addressed by convening a Scientific Resolution Board
(SRB) to make recommendations to the Assistant Director.

      Despite the FBI Laboratory’s continued use of “conflict resolution”
terminology to describe its process for resolving refused verifications, Unit
Chiefs Soltis and Wieners told us that disagreements between examiners are
not treated as errors and carry no threat of corrective action. Instead, they
said that the process contemplates an academic approach to determine what
the facts show, what conclusions have objective support, and what the FBI
Laboratory can stand behind. Alice Isenberg, Chief of the Biometrics Analysis
Section, concurred that disagreements between examiners are not treated as
errors.

       Additionally, although we learned in our initial review of the Mayfield
error that disagreements among examiners were extremely unusual, the
examiners we interviewed as part of this review all told us they had been
involved in at least a few situations in which the examiner and the verifier
reached differing conclusions. The examiners we interviewed said that they feel
free to disagree when conducting verifications and blind verifications, and that
they had never been intimidated into accepting another examiner’s conclusion
during conflict resolution or made to feel like a disputed verification was viewed
as an error. According to these examiners, while disagreements remain
infrequent, there is no longer an expectation that verifying examiners will agree
with the original conclusion. These facts suggest a fundamental shift in the
FBI Laboratory’s latent print culture.

      In the course of this follow-up review, we identified an issue relating to
the dispute resolution process that we did not spot during the initial Mayfield
review. Under the procedures in effect during our follow-up review, the FBI
Laboratory required documentation of examiner disputes resolved through
discussions at the Unit Chief level or above, and of disputes that the FBI
Laboratory could not resolve even after formal conflict resolution. However,
examiners were not required to document the informal resolution of conflicts
achieved by “trading papers” and discussing their disagreements. Although the


                                       46 

examiners we interviewed told us that they routinely documented disputed
verifications resolved through discussions between examiners in the case notes
or on a photograph, this was not mandatory. Moreover, in no case was
resolution of a disagreement included in the report to the contributor.
Although the FBI Laboratory maintained that information about disputed
verifications was in the case file and thus was available to prosecutors upon
request, we were concerned that the failure to require documentation of
disputes resolved through discussions between examiners or to mention the
results of conflict resolution in the report issued to the contributor may raise
potential issues under Brady. In light of broad interpretations of Brady in
certain jurisdictions, we recommended that the FBI Laboratory consult with
the FBI Office of General Counsel (OGC) and with the Department of Justice
(DOJ) Criminal Division regarding how this information should be documented
and communicated to the prosecutor.

     To address these concerns, the FBI Laboratory added the following
language to its Latent Print Unit Quality Assurance Manual and Latent Print
Operations Manual:

      Latent Print Unit Quality Assurance Manual, Practices for Blind
      Verification

      § 4.4 Conflict Resolution

      If differences of opinion are apparent after blind verification, the
      primary examiner and the blind verifier will follow the FBI
      Laboratory Operations Manual, Practices for Scientific or Technical
      Casework Conflict Resolution to resolve these differences. All
      facets of this process will be documented in the case file. This may
      include, but is not limited to, the occurrence of discussions, the
      final resolution, notes and marked photographs. All final
      identification decisions that required conflict resolution will be
      blind verified prior to reporting the results.

      Latent Print Operations Manual, SOPs for Examining Friction
      Ridge Impressions

      The FBI Laboratory has added a Conflict Resolution section after
      Sections 9.4 (verification) and 9.5 (blind verification).

      § 9.6 Conflict Resolution

      If a conflict occurs, the primary examiner and the verifier or blind
      verifier with whom they are in conflict will follow the FBI
      Laboratory Operations Manual, Practices for Scientific or Technical
      Casework Conflict Resolution. All facets of this process will be
      documented in the case file. This includes, but is not limited to,


                                      47 

      the occurrence of discussions, the outcome of the process, notes,
      and marked photographs.
The effect of these changes was to require the creation of a written record in
the case file reflecting the existence and resolution of every conflict between the
primary examiner and the verifying examiner, even in cases where this conflict
was resolved informally.

       The FBI and the DOJ Criminal Division consulted with Andrew
Goldsmith, DOJ’s National Coordinator of Criminal Discovery Initiatives, to
confirm that these changes are sufficient to ensure that the government meets
its Brady obligations. After this consultation, the FBI told us that it will
reinforce the FBI Laboratory’s practice of providing case notes and other
supporting documentation whenever a latent print contributor report is
requested, even if the requestor does not ask for these materials, by revising
the mandatory training provided by the FBI OGC to new employees and by
including a reminder about responses to discovery requests in a future issue of
its internal newsletter. The revised training materials provided to the OIG by
the FBI OGC make clear that examiners must (1) document in the bench notes
any disputes regarding the conclusions reached, any evidence-related examiner
differences of opinion or conclusions, and any changes in examiner opinions or
reports following examiner discussions; (2) include bench notes in the case file;
and (3) produce the entire case file, including case notes and supporting
documentation such as SOPs, in response to a discovery request even if the
attorney requests only the examiner’s forensic report. The training also
specifies that all requested discovery material must be sent through the FBI
Laboratory’s OGC staff to the relevant prosecutor even if the request is made by
a defense attorney. As a result of these changes, documentation relating to
conflict resolution will routinely be provided to prosecutors in response to
discovery requests.

      We also learned during our review that the Latent Prints Units have
begun anonymously tracking anecdotal examples of differences of opinion
between examiners as part of an informal project seeking to determine why
disagreements occur. The goal of the current project is to collect data and
potentially to create a more formal, systematized method for tracking examiner
consultations and disagreements. While we understand the sensitivity of this
issue and the tension between monitoring disagreements and creating an
environment in which scientific debate is welcomed, we think that information
derived from such a study could be beneficial and lead to more accurate,
consistent conclusions.

      Recommendation 15 is closed.




                                        48 

V.	    Special Reviews

       We recommended that the FBI undertake several special reviews
following the Mayfield error.

       A.	     Recommendation 16: Review of Prior IAFIS Identifications
               from Digital Prints (Closed)

       The FBI Laboratory used a high-resolution, scaled digital image of the
Madrid latent fingerprint, rather than the original evidence or photographs of
the latent fingerprint prepared from silver halide negatives, to conduct IAFIS
searches and identify Mayfield. Out of concern that image quality was a cause
of the Mayfield error, the FBI Laboratory reexamined cases in which a latent
fingerprint was identified as the result of an IAFIS search performed using a
digital image, without examiners having received the original evidence. The FBI
Laboratory reviewed and blind verified 16 IAFIS identifications in 14 cases
matching the exact criteria of the Mayfield error and found no false positives.
Because we concluded that the use of digital images was not a cause of the
error, however, we recommended that the FBI Laboratory reexamine a broader
category of cases, including cases in which a criminal suspect was identified
based on a single latent fingerprint searched through IAFIS, regardless of
whether the image used to conduct the search was digital.39

       The FBI Laboratory found 205 identifications made through IAFIS using
single prints between June 1999 and September 2004. According to Unit Chief
Wieners, 31 of those identifications had been previously blind verified or were
made in cases with multiple identifications and were thus eliminated. The FBI
laboratory reexamined and blind verified the remaining 174 single IAFIS
identifications, confirming the original results. We are satisfied that these
searches ensure that the FBI Laboratory did not make similar errors in the
cases presenting the greatest chance of a false positive, and thus
Recommendation 16 is closed.

       B.	     Recommendation 17: Capital Case Review (Resolved)

      After the Mayfield error, the FBI Laboratory and the DOJ Criminal
Division began a monthly “Capital Case Review” of prisoners awaiting execution


       39   As discussed above, identifications based on a single latent fingerprint present the
highest risk of a false positive. Additionally, searches conducted using automated fingerprint
identifications systems like IAFIS may introduce another source of bias and heighten the risk
of incorrect identifications by expanding the pool of known fingerprints searched and
increasing the chances that a search will produce highly similar fingerprints from different
sources. See, e.g., Itiel E. Dror and Jennifer L. Mnookin, “The Use of Technology in Human
Expert Domains: Challenges and Risks Arising from the Use of Automated Fingerprint
Identification Systems in Forensic Science,” Law, Probability & Risk 9, April 2010: 47, 53-55.




                                               49 

to determine whether the latent print unit had conducted analysis in the case
that resulted in the death sentence, or in an earlier case that may have been
an aggravating factor in the death penalty phase. Although the review had
identified no such cases as of March 2006, we recommended that the FBI
Laboratory continue the Capital Case Review or adopt another procedure
sufficient to accomplish the same objectives. We believed that these efforts
would address the unlikely possibility that similar misidentifications had
occurred in capital cases.

       To conduct the reviews, the Criminal Division’s Capital Case Unit (CCU)
prepared a list of state and federal death row inmates with a scheduled
execution date in the following month and sent it to the FBI Laboratory each
month. The CCU relied on the website maintained by the Death Penalty
Information Center (DPIC) to prepare this list.40 A CCU employee checked the
DPIC website for the names of inmates scheduled for execution the following
month, then searched Westlaw to determine whether any of the cases involved
latent fingerprint evidence. The list sent to the FBI Laboratory included every
inmate scheduled for execution the following month, highlighting the cases
that potentially involved latent fingerprint evidence. Although the list did not
specify the date of conviction or sentencing for each inmate, it is likely that the
inmates listed were convicted or sentenced long before the Mayfield error.41
Using this list, the FBI Laboratory searched its databases to determine whether
any of the cases involved latent fingerprint analysis by its latent print unit.

       Between May 2004 and February 2008, the FBI Laboratory searched its
databases for the names of 347 state and federal death row inmates scheduled
for execution the following month.42 Of these, 11 were cases in which FBI

         40 See DPIC, “Upcoming Executions,” http://www.deathpenaltyinfo.org/upcoming-

executions (accessed February 28, 2011). DPIC is a non-profit organization that studies and
prepares reports on capital punishment. Courts have cited it as a source of death penalty
data. See, e.g., Kennedy v. Louisiana, 554 U.S. 407, 460 n.7 (2008) (citing DPIC historical
data); United States v. Caro, 597 F.3d 608, 639 (4th Cir. 2010) (citing DPIC data on common
prior-conduct aggravators); United States v. Fell, 571 F.3d 264, 282 (2d Cir. 2009) (citing DPIC
data regarding federal death row inmates in states without the death penalty); Harbison v.
Little, 571 F.3d 531, 536 (6th Cir. 2009) (citing DPIC report on methods of execution).
       41 In 2008, for example, the average time elapsed from sentence to execution was 139
months. See Bureau of Justice Statistics, “Capital Punishment, 2008 – Statistical Tables,”
Table 11, December 2009, http://bjs.ojp.usdoj.gov/content/pub/pdf/cp08st.pdf (accessed
December 6, 2010).
       42 Between 2004 and 2008, 251 inmates were executed. At year end 2008, 3,207

inmates were under sentence of death. See Bureau of Justice Statistics, “Capital Punishment,
2008 – Statistical Tables,” Tables 4 and 15, December 2009,
http://bjs.ojp.usdoj.gov/content/pub/pdf/cp08st.pdf (accessed February 28, 2011). The list
of upcoming executions maintained by DPIC and used as the basis for the CCU’s list includes
those subject to a stay of execution, likely accounting for the difference between the number of
names forwarded to the FBI Laboratory and the number of executions carried out during this
                                                                                         (Cont’d.)


                                               50 

latent print examiners had conducted examinations, and only one involved an
identification. The FBI Laboratory blind verified the conclusions in these 11
cases and found no errors. The FBI Laboratory reported these results to the
CCU in a spreadsheet listing the names received, the cases that involved latent
fingerprint analysis, and the outcome of any reexaminations.

      The Capital Case Review stopped in February 2008, when the CCU
ceased providing names to the FBI Laboratory. We learned that this
discontinuation was not the product of a specific decision. Although CCU
attorneys initially were responsible for preparing and sending the lists of death
row inmates to the FBI Laboratory, by 2008 an administrative support
employee had assumed this responsibility. In March 2008, this employee went
on extended leave, and the reviews were not reassigned during her absence or
resumed upon her return. FBI Laboratory personnel we interviewed stated
that they attempted to contact the CCU and inquire about the status of the
reviews but received no response.

       Additionally, we received information that, even before the reviews were
discontinued, the CCU sometimes did not provide names to the FBI Laboratory
in a timely manner. One FBI Laboratory employee told us that she had at
times received lists late, or received lists that included several months of
upcoming executions, and had only a day or two to conduct the reviews before
the date of the first scheduled execution.

       During our follow-up review, we told the FBI and the CCU that we
believed these reviews should continue in some form, but that the methodology
used to identify death row inmates must be more rigorous. In particular, we
encouraged the CCU and FBI Laboratory to obtain prisoner data from the
states.43 To avoid concerns about the timely completion of reviews, we
suggested that the CCU and FBI Laboratory compile a master list of current
state and federal death row inmates in which convictions or sentencing
occurred before December 31, 2006, as well as the death row inmates executed
since March 2008, and to identify any cases in which the FBI Laboratory
performed latent fingerprint analysis, prioritizing the cases according to the

time period. See, e.g., DPIC, “The Death Penalty in 2007: Year End Report,” December 2007,
http://www.deathpenaltyinfo.org/2007YearEnd.pdf (accessed February 23, 2011) (in 2007, 42
executions took place and more than 40 cases received stays of execution because of lethal
injection challenges).
       43   Information on death row inmates is collected annually by the Bureau of Justice
Statistics (BJS). See Bureau of Justice Statistics, “Capital Punishment (NPS-8),”
http://bjs.ojp.usdoj.gov/index.cfm?ty=dcdetail&iid=253 (accessed December 6, 2010).
Although the raw data collected by BJS is subject to strict confidentiality protections and use
limitations, see 42 U.S.C. §§ 3735, 3789g (2006), the states presumably maintain the
information necessary to comply with their annual reporting obligations and should be able to
provide the FBI Laboratory and Criminal Division with a list of names.




                                              51 

scheduled execution date. We believed that this would permit the CCU and
FBI Laboratory to identify and blind verify cases at one time, rather than doing
so on an ongoing basis.

      The FBI has informed us that it is in the process of compiling a list of
inmates and completing the necessary reviews. Specifically, the FBI has
consulted with the Bureau of Justice Statistics (BJS) and determined that 21
states disclose the names of prisoners awaiting execution and the dates of
conviction on official government websites. For the remaining 13 states that
continue to have the death penalty but do not publicly disclose inmate data,
the FBI has obtained information from 1 and has requested information from
the other 12. For inmates whose convictions occurred before December 31,
2006, the FBI Laboratory will cross-reference their names through its Evidence
Control System database to determine whether the FBI Laboratory conducted
any latent print analysis associated with these cases. If the FBI Laboratory did
conduct such analysis, it will request the file from storage and review it using
blind verification. The FBI Laboratory told us that it will prioritize cases in
which there is an upcoming execution date.

       The FBI Laboratory also told us that it has recently reviewed the cases of
144 inmates executed between March 2008 and February 22, 2011, the period
when the Laboratory was not receiving names of prisoners scheduled for
execution from the CCU. The FBI Laboratory stated that it searched its
Evidence Control System and determined that it processed evidence in 15 of
the 144 cases. The FBI Laboratory determined that it previously had reviewed
2 of these 15 cases. For the remaining 13, it re-examined the prints and blind
verified any single conclusions, finding no errors.

      Once completed, these reviews will permit this recommendation to be
closed.

      C.    Recommendation 18: Explanations for Errors (Closed)

      Under the procedures in place at the time, the LPU created little
documentation about the causes of the Mayfield error. Not only was the
examination documentation incomplete, but the examiners’ written
explanations for the causes of the error were insufficiently specific and failed to
provide useful details about how or why the error occurred. As a result, we
recommended that the FBI Laboratory require more detailed written
explanations in the future for any errors producing an incorrect result or
conclusion and assign responsibility for this documentation to examiners who
were not involved in the error.

      The FBI Laboratory Operations Manual has detailed corrective action
procedures that apply where there is an error that produces an incorrect result
or conclusion, called an “analytical/interpretive error.” The FBI Laboratory



                                        52 

considers these errors to be “Level 1 nonconformities” if they directly affect and
have a fundamental impact on the quality of the work product. In the event
such an error occurs, the corrective action procedures require that the
Standards and Practices Program Manager handle the corrective action and
identify and document the “root cause” of the error. Possible corrective actions
may include remedial training, supplemental proficiency testing, suspension
from casework, notification of the contributor, and issuance of amended or
supplemental reports.

      Combined with the additional documentation required for examinations
and verifications, which should help to reveal the contemporaneous reasoning
leading to any errors, we believe that this requirement adequately implements
Recommendation 17. This recommendation is closed.


VI.   Conclusion

       In conclusion, we believe that the FBI Laboratory has made significant
progress in implementing many of the recommendations from our Mayfield
Report. Changes to the FBI Laboratory’s procedures and training materials
made in the course of this review, such as providing further guidance on the
use of Level 3 detail and improving documentation of explanations for
differences, represent substantial steps toward reducing the likelihood of
errors. We encourage the FBI Laboratory to continue funding and conducting
research aimed at validating latent fingerprint analysis and at creating
objective criteria for determining sufficiency and declaring an identification.
We also strongly support the efforts by the FBI and the CCU to identify the
remaining capital cases in which the FBI Laboratory conducted latent
fingerprint analysis before December 31, 2006, and to complete the Capital
Case Review. We believe that the FBI Laboratory must continue to address
these issues to avoid future errors, improve the reliability and accuracy of the
latent fingerprint discipline as a whole, and ensure public confidence in the
results of its examinations. We believe that full implementation of our
recommendations will help the FBI Laboratory in this effort.




                                       53 

